<html>
<title> - EXAMINING THE USDA'S PROPOSED CUTS TO FREE SCHOOL MEALS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                   EXAMINING THE USDA'S PROPOSED CUTS
                          TO FREE SCHOOL MEALS

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 16, 2019

                               __________

                           Serial No. 116-43

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-486 PDF           WASHINGTON : 2021              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            Dusty Johnson, South Dakota
Andy Levin, Michigan*                Fred Keller, Pennsylvania
Ilhan Omar, Minnesota                Gregory F. Murphy, North Carolina
David J. Trone, Maryland
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON CIVIL RIGHTS AND HUMAN SERVICES

                  SUZANNE BONAMICI, OREGON, Chairwoman

Raul M. Grijalva, Arizona            James Comer, Kentucky,
Marcia L. Fudge, Ohio                  Ranking Member
Kim Schrier, Washington              Glenn ``GT'' Thompson, 
Jahana Hayes, Connecticut                Pennsylvania
David Trone, Maryland                Elise M. Stefanik, New York
Susie Lee, Nevada                    Dusty Johnson, South Dakota

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 16, 2019.................................     1

Statement of Members:
    Bonamici, Hon. Suzanne, Chairwoman, Subcommittee on Civil 
      Rights and Human Services..................................     1
        Prepared statement of....................................     4
    Comer, Hon. James, Ranking Member, Subcommittee on Civil 
      Rights and Human Services..................................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Lipps, Mr. Brandon, Deputy Under Secretary for Food, 
      Nutrition, and Consumer Services, U.S. Department of 
      Agriculture (USDA).........................................     8
        Prepared statement of....................................    10

Additional Submissions:
    Chairwoman Bonamici:.........................................
        Letterhead dated August 7, 2020 from National Education 
          Association (NEA) on behalf of Alma Adams..............    49
        Letter dated October 15, 2019 from National Education 
          Association (NEA)......................................    50
    Mr. Comer:...................................................
        Letterhead dated September 20, 2019 from Congress of the 
          United States..........................................    51
        Letter from Congress of the United States................    54
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio:.............................................
        Supplemental Nutrition Assistance Program (SNAP)Comment 
          Letter.................................................    55
        Letter dated October 2, 2019 from Congressional Black 
          Caucus.................................................    86
        Letter dated October 16, 2019 from This Mark Matters.....    91
    Hayes, Hon. Jahana, a Representative in Congress from the 
      State of Connecticut:......................................
        Interreligious Work Group On Domestic Human Needs (DHN)..    93
        Letter dated September 23, 2019..........................    97
    Lee, Hon. Susie, a Representative in Congress from the State 
      of Nevada:.................................................
        Letter dated September 20, 2019 from Mazon...............    99
    Thompson, Hon. Glenn ``GT'', a Representative in Congress 
      from the State of Pennsylvania:............................
        Letter dated October 23, 2019............................   107
        Link: FNS Quality Control Process for SNAP Error Rate....   107
    Trone, Hon. David J., a Representative in Congress from the 
      State of Maryland:.........................................
        Notice of Proposed Rule Making from Maryland Hunger 
          Solutions..............................................   108
        Comment on FR Doc # 2019-15670...........................   109
        Comment on FR Doc: 2019-15670............................   112
        Community Eligibility: The Key to Hunger-Free Schools....   113
    Questions submitted for the record by:
        Ms. Fudge................................................   140
        Mrs. Lee.................................................   141
        Omar, Hon. Ilhan, a Representative in Congress from the 
          State of Minnesota.....................................   141
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia....................   140
    Mr. Lipp's response to questions submitted for the record....   143


                   EXAMINING THE USDA'S PROPOSED CUTS

                          TO FREE SCHOOL MEALS

                              ----------                              


                      Wednesday, October 16, 2019

                       House of Representatives,

            Subcommittee on Civil Rights and Human Services,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 2:53 p.m., in 
Room 2175, Rayburn House Office Building. Hon. Suzanne Bonamici 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Bonamici, Grijalva, Fudge, 
Schrier, Hayes, Trone, Lee, Comer, Thompson, and Johnson.
    Also Present: Representatives Scott,Wild, Jayapal, Adams 
Foxx and Keller.
    Staff Present: Tylease Alli, Chief Clerk; Ilana Brunner, 
General Counsel; Carrie Hughes, Director of Health and Human 
Services; Ariel Jona, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Jaria Martin, Clerk/Assistant to the 
Staff Director; Kevin McDermott, Senior Labor Policy Advisor; 
Richard Miller, Director of Labor Policy; Kota Mitzutani, Staff 
Writer; Max Moore, Office Aid; Janice Nsor, Oversight Counsel; 
Veronique Pluviose, Staff Director; Banyon Vassar, Deputy 
Director of Information Technology; Katelyn Walker, Counsel; 
Joshua Weisz, Communications Director; Rachel West, Senior 
Economic Policy Advisor; Courtney Butcher, Minority Director of 
Member Services and Coalitions; Dean Johnson, Minority Staff 
Assistant; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Hannah Matesic, Minority Director of 
Operations; Audra McGeorge, Minority Communications Director; 
Jake Middlebrooks, Minority Professional Staff Member; Carlton 
Norwood, Minority Press Secretary; Chance Russell, Minority 
Legislative Assistant; and Mandy Schaumburg, Minority Chief 
Counsel and Deputy Director of Education Policy.
    Chairwoman BONAMICI. I note that a quorum is present. I 
note for the Subcommittee that Representative Davis of 
California, Representative Adams of North Carolina, 
Representative Jayapal of Washington, Representative Wild of 
Pennsylvania, Representative Omar of Minnesota, and 
Representative Keller of Pennsylvania are permitted to 
participate in today's hearing with the understanding that 
their questions will come only after all members of the 
Subcommittee on Civil Rights and Human Services on both sides 
of the aisle who are present have had an opportunity to 
question the witnesses.
    The Subcommittee is meeting today in an oversight hearing 
to hear testimony on examining the USDA's proposed cuts to free 
school meals.
    Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and Ranking Member. This allows us to hear 
from our witness sooner and provides all members with adequate 
time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Today we will examine a Department of Agriculture proposal 
that will eliminate automatic access to free school meals for 
close to one million children and threaten their food security.
    On July 23, the USDA proposed a new rule that will restrict 
eligibility for the Supplemental Nutrition Assistance Program, 
or SNAP. On its own, the proposal will cut access to food 
assistance for about 3.1 million low income Americans, which 
will have significant consequences for individuals and families 
struggling to get by.
    In my home state of Oregon, about 16 percent of households 
will lose access to SNAP benefits as a result of this proposed 
rule. But as we will discuss today, the proposal will have 
additional consequences for low income children, many of whom 
count on school meals as their most consistent source of 
nutrition.
    Through a provision called categorical eligibility, 
children who are eligible for SNAP are automatically eligible 
for free school meals.
    According to the department's own analysis released late 
yesterday afternoon, its proposed changes to SNAP will cut 
automatic access to free school meals for close to one million 
children.
    Shockingly, the department failed to disclose this analysis 
when it originally published its proposal despite being 
required to do so.
    In fact, the only reason we originally knew of the 
consequences of the proposed SNAP rule, is that a member of the 
Committee staff asked the department directly on a briefing 
call about the effect on school meals.
    After waiting months for this analysis, we have now learned 
that the rule will be even worse for students and families than 
we originally understood and the department still has not fully 
accounted for the ripple effects of this proposal.
    Under the Community Eligibility Provision, nearly 2,000 
schools across the country provide free school meals to all of 
their students because more than 40 percent of their students 
participate in an anti-poverty program such as SNAP.
    Schools participating in Community Eligibility appreciate 
the simplification of the program, the reduction of paperwork, 
and importantly, the elimination of stigma among students.
    For schools currently just above the 40 percent threshold, 
the proposed rule very well could kick enough students off SNAP 
that the school would lose access to the Community Eligibility 
Provision.
    As a result, these schools will be forced to go through the 
burdensome process of asking low income families to fill out 
individual applications for free or reduced price school meals.
    We already know that without community eligibility, hungry 
children who would otherwise be eligible across the country are 
going without meals. And we now know that the department failed 
to account for the potential--this potential effect in its 
analysis.
    Inevitably, if this rule is implemented, many more low 
income students who are eligible for free or reduced priced 
school meals will not receive the food assistance they 
desperately need. That is nothing short of a preventable 
tragedy.
    To justify its proposed rule, the administration is 
pointing to a single case of one wealthy individual who 
intentionally manipulated the SNAP system and then the 
department argues that we must, quote, close loopholes.
    To be clear, we are not talking about wealthy kids taking 
advantage of the system. According to USDA's own analysis, 93 
percent of households that will lose eligibility for free 
school meals will still be eligible for reduced price school 
meals after filling out an individual application.
    These are children from poor families living just above the 
poverty line. It is not easy for these families. In fact, just 
last week I met with Family Promise, an organization that helps 
homeless families get back on their feet and regain 
independence.
    A tearful mother shared her story of trying to find 
employment that will cover rent which is already hard. This 
rule will only exacerbate the challenges for those who are 
struggling. The department is using a misleading claim to 
dismiss the real struggles of millions of families in dire need 
of food assistance.
    The reality is that this administration is going to be 
making more hungry children go without breakfast or lunch to 
pay for its nearly $2 trillion tax cut that overwhelmingly 
benefited corporations and the wealthy.
    The Trump Administration's proposed rule not only denies 
children automatic access to school meals, it denies them the 
ability to reach their potential. A large body of scientific 
research and basic common sense show that hungry children can't 
learn.
    The President himself recognized the importance of school 
lunch to our Nation's children when he declared this week 
National School Lunch Week. I note that it is hypocritical 
because at the same time the President acknowledges the 
critical role these meals play in the academic success of 
students, his administration is moving forward with a proposed 
rule that will limit access to these meals for almost a million 
children.
    At a time when 1 in 7 children are already food insecure, 
we should be doing more to prevent, so much more to prevent 
children--childhood hunger.
    Mr. Lipps, thank you again, Deputy Licks--Lipps, thank you 
again for being here for this important conversation. However, 
I do need to express my disappointment on two points.
    First, Committee staff pointed out to the department that 
your written testimony directly addressed a different Committee 
than the one you are before today.
    And it further does not address the effect of the proposed 
SNAP rule on school meals. Despite bringing that to your 
attention, you declined the opportunity to make changes to your 
written testimony and make it more responsive to the topic of 
today's hearing.
    Second, your department waited until yesterday afternoon, 
the afternoon before this hearing to release an analysis that 
the Committee has been requesting for months, and, 
unfortunately, you only intend to reopen the comment period for 
an additional two weeks which is woefully insufficient in light 
of how many people will be affected by this rule.
    I hope you will show respect to the Members of this 
Committee and the people we represent by addressing these 
concerns directly in your oral testimony and answers during 
today's hearing.
    I now recognize the distinguished Ranking Member for the 
purpose of making an opening statement.
    [The statement of Chairwoman Bonamici follows:]

 Prepared Statement of Hon. Suzanne Bonamici, Chairwoman, Subcommittee 
                   on Civil Rights and Human Services

    Today we will examine a Department of Agriculture proposal that 
will eliminate automatic access to free school meals for close to one 
million children and threaten their food security.
    On July 23rd, USDA proposed a new rule that will restrict 
eligibility for the Supplemental Nutrition Assistance Program, or SNAP. 
On its own, the proposal will cut access to food assistance for 3.1 
million low-income Americans, which will have significant consequences 
for individuals and families struggling to get by. In my home state of 
Oregon, 16 percent of households will lose access to SNAP benefits as a 
result of this proposed rule.
    But, as we will discuss today, the proposal will have additional 
consequences for low-income children, many of whom count on school 
meals as their most consistent source of nutrition.
    Through a provision called categorical eligibility, children who 
are eligible for SNAP are automatically eligible for free school meals. 
According to the Department's own analysis released late yesterday 
afternoon, its proposed changes to SNAP will cut automatic access to 
free school meals for close to one million children.
    Shockingly, the Department failed to disclose this analysis when it 
published its proposal, despite being required to do so. In fact, the 
only reason we originally knew the consequences of the proposed SNAP 
rule is that a member of the Committee staff asked the Department 
directly on a briefing call about the effect on school meals.
    After waiting months for this analysis, we now have learned that 
the rule will be even worse for students and families than we 
originally understood, and the Department still has not fully accounted 
for the ripple effects of its proposal.
    Under the Community Eligibility Provision, nearly 2,000 schools 
across the country provide free school meals to all their students 
because more than 40 percent of their students participate in an anti-
poverty program, such as SNAP. Schools participating in Community 
Eligibility appreciate the simplification of the program, the reduction 
of paperwork, and, importantly, the elimination of stigma among 
students.
    For schools currently just above the 40 percent threshold, the 
proposed rule very well could kick enough students off SNAP that the 
school would lose access to the Community Eligibility Provision. As a 
result, these schools will be forced to go through the burdensome 
process of asking low-income families to fill out individual 
applications for free or reduced price school meals. We already know 
that, without community eligibility, hungry children who would 
otherwise be eligible across the country are going without meals. And 
we now know that the Department failed to account for the potential 
effect in its analysis.
    Inevitably, if this rule is implemented, many more low-income 
students who are eligible for free or reduced price school meals will 
not receive the food assistance they desperately need. That is nothing 
short of a preventable tragedy.
    To justify its proposed rule, the Administration is pointing to a 
single case of one wealthy individual who intentionally manipulated the 
SNAP system, and arguing that we must, quote, ``close loopholes.''
    To be clear, we are not talking about wealthy kids taking advantage 
of the system. According to USDA's own analysis, 93 percent of 
households that will lose eligibility for free school meals will still 
be eligible for reduced price school meals after filling out an 
individual application. These are children from poor families living 
just above the poverty line. It's not easy for these families. Just 
last week I met with Family Promise, an organization that helps 
homeless families get back on their feet and regain independence. A 
tearful mother shared her story of trying to find employment that will 
cover rent; it's already hard and this rule will only exacerbate the 
challenges for those who are struggling.
    The Department is using a misleading claim to dismiss the real 
struggles of millions of families in dire need of food assistance. The 
reality is that the Administration is going to be making more hungry 
children go without breakfast or lunch to pay for its nearly $2 
trillion tax cut that overwhelmingly benefited corporations and the 
wealthy.
    The Trump Administration's proposed rule not only denies children 
automatic access to school meals, it denies them the ability to reach 
their potential. A large body of scientific research and basic 
commonsense shows that hungry children can't learn. The President 
himself recognized the importance of school lunch to our nation's 
children when he declared this week National School Lunch Week. I note 
that it is hypocritical; at the same time the President acknowledges 
the critical role these meals play in the academic success of students, 
his Administration is moving forward with a proposed rule that will 
limit access to these meals for almost a million children. At a time 
when one in seven children are already food insecure, we should be 
doing so much more to prevent child hunger.
    Mr. Lipps, thank you again for being here for this important 
conversation; however, I also need to express my disappointment on two 
points. First, Committee staff pointed out to the Department that your 
written testimony directly addressed a different Committee than the one 
you are before today, and further it does not address the effect of the 
proposed SNAP rule on school meals. Despite bringing that to your 
attention, you declined the opportunity to make changes to your written 
testimony and make it more responsive to the topic of today's hearing.
    Second, your Department waited until yesterday afternoon to release 
an analysis that the Committee has been requesting for months, and, 
unfortunately, you only intend to reopen the comment period for two 
weeks. This is woefully insufficient in light of how many people will 
be affected by this rule. I hope you will show respect to Members of 
this Committee and the people we represent by addressing these concerns 
directly in your oral testimony and answers during today's hearing.
    Now, I will yield to the Ranking Member for the purpose of making 
an opening statement.
                                 ______
                                 
    Mr. COMER. Thank you. Education is a critical part of 
student success later in life and we know there is a 
correlation between food and healthy nutrition and the capacity 
of children to develop and learn. That is why Federal funds 
have been used to provide free or reduced priced school meals 
to students for more than 70 years.
    With this in mind, I think it is also appropriate to 
recognize that this week marks a celebration of national school 
lunch week. A week dedicated to acknowledging the benefits of 
the National School Lunch Program and promoting access to 
nutritionally-balanced meals for students across the country.
    Everyone in this room wants what is best for our Nation's 
school children. Unfortunately, my colleagues on the other side 
of the aisle are intent on painting the picture that this 
administration is eager to put school age children in harm's 
way and that is simply not the case.
    Today you will hear democrats wrongfully argue that the 
administrations rule will deny school children access to free 
meals. Their manipulation of the data may generate headlines 
and it certainly advances the Democrat's narrative but it is 
far from the truth.
    I am afraid my colleagues have missed the point of the 
USDA's rules and I would like to take a moment to set the 
record straight.
    All eligible children will continue to receive school 
meals. Let me repeat that. All eligible school children will 
continue to receive meals.
    Currently, eligibility loopholes allow states to make 
families receiving minimal Temporary Assistance for Needy 
Families or TANF benefits automatically eligible to participate 
in USDA's Supplemental Nutrition Assistance Program or SNAP.
    The purpose of TANF is to provide assistance to needy 
families to allow children to be cared for in their own homes 
and in parents' dependence on government benefits through work, 
promotion, and marriage.
    Yet for years the Federal government has allowed states to 
utilize Federal loopholes to virtually eliminate the income and 
asset requirements for SNAP. The expanded eligibility has 
included families with incomes that far exceed eligibility 
requirements.
    In fact, I am sure we have all heard by now the story of a 
millionaire living in Minnesota who was able to successfully 
enroll in the program. While this is likely not common, it is 
emblematic of a larger problem in these programs.
    So the administration issued the rule we are discussing 
today which is aimed at curtailing states from exploiting 
eligibility loopholes.
    The benefits offered to those in need should actually reach 
those in need. We have a responsibility to diligently and 
responsibly allocate taxpayer dollars.
    Too many in Congress find it way too easy to spend hard 
earned taxpayer dollars without promising accountability. And 
that is an insult to every citizen who has entrusted us with 
their representation. Taxpayer dollars should be used 
effectively, efficiently, and in accordance with the law.
    Committee Republicans believe that students who need free 
or reduced price lunches should be able to receive them. 
Period.
    Nothing in the proposed rule will change income eligibility 
thresholds in the child nutrition laws.
    USDA is taking comprehensive steps to ensure that benefits 
are provided effectively, efficiently and with integrity to 
those most in need, an effort that everyone on this Committee 
should be able to report. Thank you, Madam Chair.
    [The statement of Mr. Comer follows:]

Prepared Statement of Hon. James Comer, Ranking Member, Subcommittee on 
                    Civil Rights and Human Services

    ``Education is a critical part of students' success later in life 
and we know there is a correlation between food and healthy nutrition 
and the capacity of children to develop and learn. That is why federal 
funds have been used to provide free or reduced-price school meals to 
students for more than 70 years. With this in mind, I think it is also 
appropriate to recognize that this week marks the celebration of 
National School Lunch Week - a week dedicated to acknowledging the 
benefits of the National School Lunch Program and promoting access to 
nutritionally- balanced meals for students across the country.
    Everyone in this room wants what is best for our nation's school 
children. Unfortunately, my colleagues on the other side of the aisle 
are intent on painting the picture that this administration is eager to 
put school-aged children in harm's way; and this simply is not the 
case.
    Today, you will hear Democrats wrongfully argue that the 
administration's rule will deny school children access to free school 
meals. Their manipulation of the data may generate headlines, and it 
certainly advances the Democrats' narrative, but it is far from the 
truth.
    I'm afraid my colleagues have missed the point of USDA's rule, and 
I'd like to take a moment to set the record straight.
    All eligible children will continue to receive school meals. Let me 
repeat that. All eligible children will continue to receive school 
meals.
    Currently, eligibility loopholes allow states to make families 
receiving minimal Temporary Assistance for Needy Families (TANF) 
benefits automatically eligible to participate in USDA's Supplemental 
Nutrition Assistance Program (SNAP). The purpose of TANF is to `provide 
assistance to needy families to allow children to be cared for in their 
own homes, and end parents' dependence on government benefits through 
work promotion and marriage.'
    Yet for years the federal government has allowed states to utilize 
federal loopholes to virtually eliminate the income and asset 
requirements for SNAP. The expanded eligibility has included families 
with incomes that far exceed eligibility requirements. In fact, I am 
sure we have all heard by now the story of a millionaire living in 
Minnesota was able to successfully enroll in the program. While this is 
likely not common, it is emblematic of a larger problem in these 
programs. So, the administration issued the rule we are discussing 
today, which is aimed at curtailing states from exploiting an 
eligibility loophole.
    The benefits offered to those in need should actually reach those 
in need. We have a responsibility to diligently and responsibly 
allocate taxpayer dollars. Too many in Congress find it way too easy to 
spend hard-earned taxpayer dollars without promising accountability. 
That is an insult to every citizen who has entrusted us with their 
representation. Taxpayer dollars should be used effectively, 
efficiently, and in accordance with the law.
    Committee Republicans believe that students who need free or 
reduced-priced lunches should be able to receive them. Period. Nothing 
in the proposed rule will change income eligibility thresholds in the 
child nutrition laws. USDA is taking comprehensive steps to ensure that 
benefits are provided effectively, efficiently, and with integrity to 
those most in need - an effort that everyone on this Committee should 
be able to support.''
                                 ______
                                 
    Chairwoman BONAMICI. Without objection, all other members 
who wish to insert written statements into the record may do so 
by submitting them to the Committee Clerk electronically in 
Microsoft Word format by 5 p.m. on October 29, 2019. I will now 
introduce our witness.
    Brandon Lipps is the Deputy Undersecretary of the Food, 
Nutrition and Consumer Services, FNCS at the U.S. Department of 
Agriculture.
    Previously Mr. Lipps served as administrator of the food 
and nutrition service and also acted--and also as Acting Deputy 
Undersecretary of the FNCS from July 2017 to August of 2019. 
Pursuant to Committee Rule 7(d), the witness will please stand 
and raise his right hand.
    [Witness sworn.]
    Chairwoman BONAMICI. Let the record show that the witness 
answered in the affirmative.
    We appreciate the witness for being here today and we look 
forward to your testimony. Let me remind the witness that we 
have read your written statement and it will appear in full in 
the hearing record.
    Pursuant to Committee Rule 7(d) and Committee practice, you 
are asked to limit your oral presentation to a 5 minute summary 
of your written statement.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so it will turn on 
and the Members can hear you. And as you being to speak, the 
light in front of you will turn green. After 4 minutes, the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red, your 5 minutes have 
expired and we ask that you please wrap up.
    We will let the witness make his presentation before we 
move to member questions and when answering a question, please 
remember to once again turn your microphone on.
    I now recognize Deputy Undersecretary Lipps.

 TESTIMONY OF BRANDON LIPPS, DEPUTY UNDER SECRETARY FOR FOOD, 
     NUTRITION, AND CONSUMER SERVICES, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. LIPPS. Thank you, Madam Chairwoman, Ranking Member 
Comer, and Members of the Committee for the opportunity to 
discuss the administration's priorities and answer any 
questions you may have with regard to child nutrition 
reauthorization.
    I am Brandon Lipps, the Deputy Under Secretary for Food, 
Nutrition, and Consumer Services. FNS is responsible for 
administering America's nutrition assistance programs which 
leverage our Nation's agricultural abundance to ensure every 
American has access to wholesome, nutritious food, even when 
they face challenging circumstances.
    This Committee, as noticed by the Chairwoman's opening 
statement has expressed interest in USDA's recent regulatory 
actions related to the Supplemental Nutrition Assistance 
Program. Yesterday, the Food and Nutrition Service released an 
informational analysis on the proposed rule to refine 
categorical eligibility requirements based on receipt of 
Temporary Assistance for Needy Families, commonly known as TANF 
benefits under SNAP.
    The new informational analysis estimates that for children 
and households found to have income and asset above SNAP's 
statutory eligibility, an estimated 96 percent of those 
children will remain eligible for free or reduced priced meals 
if this proposed rule becomes final in its current form.
    For the remaining estimated 40,000 children or one tenth of 
one percent of all children receiving school lunch, their 
family income exceeds the congressionally set NSLP statutory 
eligibility standard of 185 percent of the poverty line.
    We have also submitted a Federal Register notice which will 
appear later this week indicating we will also be reopening the 
comment period for 14 days to provide the public an opportunity 
to review and provide comment on this document as part of the 
rule making record.
    While I cannot discuss the content of the final rule or the 
comments we have received before they are published, I would 
like to take a moment to talk about the department's objectives 
in this area.
    As you know, Americans are a generous people who believe in 
helping those who have fallen on hard times. But we all agree 
that those who can provide for themselves should.
    SNAP and our other programs are critical to millions of 
Americans and we should be proud to have the abundance to come 
alongside them in hard times. But in order to do that, we have 
to be good stewards of every dollar.
    For far too long, negative press has weakened American's 
confidence and important programs you have charged us with 
administering at the Food and Nutrition Service.
    The stories are sometimes so egregious they appear surely 
to be only rumors but are unfortunately verified as factual, 
jeopardizing the future of these important programs for 
millions of families.
    Let's first look at broad based categorical eligibility. 
There was recently a story about a millionaire and previously 
there have been stories about other millionaires who have 
accessed the Supplemental Nutrition Assistance Program through 
this loophole.
    The loophole was first exposed by Congress own oversight 
authority, the General Accountability Office in a 2012 report 
as having quote a negative effect on SNAP program integrity. As 
some states are designating SNAP applicants as categorically 
eligible without providing them the service required to make 
that determination.
    The loophole received greater scrutiny in a 2015 Office of 
Inspector General of USDA report that described how one state 
conferred eligibility by providing recipients with quote a 
brochure for social services. And the OIG went on to note that 
the state only mailed the brochure to applicants after it 
conferred the eligibility for SNAP.
    Next let's look at families living across the state line 
from each other, just miles apart. We have learned that one 
family is receiving two and a half times less in SNAP benefits 
simply because one state uses an inflated and inaccurate 
utility deduction.
    What began as a series of observations from front line 
staff at the Food and Nutrition Service about potential 
irregularities then became a full blown USDA study initiated in 
2014.
    We have since confirmed these irregularities because many 
states cannot cite the sources of their base calculation for 
the deduction or the year in which they were established. This 
not only creates an uneven patchwork for the administration of 
a Federal program but it is morally unfair to those receiving 
unequal benefits.
    And finally, with the lowest unemployment rate in 50 years, 
we have employers across this country who cannot find enough 
workers. Yet states are continuing to wave congressionally 
mandated work requirements. We have states currently exempting 
counties with unemployment rates as low as 3.6 percent who were 
claiming lack of sufficient jobs in that county.
    Egregious program abuses such as these leave a dark cloud 
over this important program risking future support and 
reflecting negatively on participants who need access to the 
programs. Families on these programs and the taxpayers who fund 
them expect better from their government.
    We at USDA are dedicated to ensuring that these important 
programs are preserved for those in need and that they are 
administered equitably with integrity and within the 
eligibility standards that Congress has provided in the law. I 
remain committed to listening to and collaborating with all 
stakeholders, including each of you on this Committee. Working 
together, we can improve the lives of those who fall on hard 
times and come in contact with these programs.
    Thank you for having me and I am happy to answer any 
questions.
    [The statement of Mr. Lipps follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairwoman BONAMICI. Thank you for your testimony. Under 
Committee Rule 8(a) we will now question witnesses under the 5 
minute rule. As Chair I have decided to go first and then I 
will yield to the Ranking Member. We will then alternate 
between the parties.
    I now recognize myself for 5 minutes for the purpose of 
questions.
    Deputy Lipps, during a phone briefing with the House 
Committee on Education and Labor staff on July 22, days before 
the publication of the proposed rule, Pam Miller, the 
administrator of the USDA Food and Nutrition Service stated 
that the department estimated that more than 500,000 children 
would lose their automatic eligibility for free school meals as 
a result of the proposed rule.
    Is it correct that Ms. Miller provided Committee staff with 
this estimate of more than 500,000 children losing their 
automatic access to free school meals? And this is a yes or no 
question.
    Mr. LIPPS. Chairwoman, I was not on that call. Pam does not 
deny having that conversation. I can't tell you what the 
details of the conversation were.
    Chairwoman BONAMICI. Is there any reason to believe that 
she did not tell Committee staff that the estimate of more than 
500 children would lose their automatic access to school meals?
    Mr. LIPPS. I do not know.
    Chairwoman BONAMICI. Is it correct that the analysis that 
your department published on Regulations.gov late yesterday 
afternoon stated and I quote, as many as 982,000 children would 
no longer be directly certified for free school meals? Is that 
correct?
    Mr. LIPPS. When, if their families no longer meet the 
income and asset standards provided under SNAP, they will not 
be directly certified for school meals but continue to be 
eligible under the standards set in the child nutrition 
statute.
    Chairwoman BONAMICI. But does the analysis that you have 
published on Regulations.gov state as many as 982,000 children 
would no longer be directly certified for free school meals? Is 
that in the analysis that you published?
    Mr. LIPPS. That's correct. They would not be directly 
certified if their families did not meet the asset income test 
for SNAP.
    Chairwoman BONAMICI. So we have had a lot of conversations 
in this Committee about SNAP and school meals. The department 
also states in its analysis of households that will no longer 
be eligible for free school meals, 93 percent would only be 
eligible for reduced price meals if they applied. So they are 
actually losing access to free school meals, is that correct?
    Mr. LIPPS. Chairwoman, the income test for school meals are 
set in statute by the jurisdiction of this Committee and 
students whose family meet those standards will qualify for the 
application process if they are not directly certified through 
SNAP.
    Chairwoman BONAMICI. But is correct that 93 percent of 
those children would only be eligible for reduced priced meals 
if they apply? So they are losing access to free school meals, 
correct?
    Mr. LIPPS. There are multiple ways for children to enter 
the school nutrition program so I can't talk about those 
specific families for sure. But certainly for those who meet 
the income standards provided in statute they will qualify 
through the application process.
    Chairwoman BONAMICI. So we have--we have also had 
conversations in this Committee about the burden associated 
with filling out applications and it is not reasonable to 
assume that every child who is financially eligible will end up 
receiving the benefit they need to thrive, is that correct? 
There will be some children's whose parents or family members 
do not fill out an application, is that correct?
    Mr. LIPPS. Chairwoman, that is correct and the Agency and a 
number of groups take a lot of actions to help make sure the 
families are aware of their access and that they have the 
opportunity to fill those out and ensure that their children 
have access to those meals.
    Chairwoman BONAMICI. I understand. But there will be 
children whose parents do not fill out the forms or the 
application so there will be children who will not get--
    Mr. LIPPS. That may be true.
    Chairwoman BONAMICI. Yes. Section 6A3C of Executive Order 
12866, the regulatory planning and review requires 
administration to include in the regulatory impact analysis of 
a proposed rule all costs anticipated from a regulatory action 
including adverse effects on health.
    Why was the department's analysis of the effect of the 
proposed rule on school meals missing from the initial 
regulatory impact analysis?
    Mr. LIPPS. Chairwoman, it was not missing. The Agency 
conducted a proper regulatory impact analysis on this rule 
which makes changes to the, refine the categorical, broad based 
categorical eligibility in the SNAP program and considers all 
relevant regulatory impacts with regard to that. Regulatory 
impact analysis went through all proper clearance channels and 
was cleared as a proper regulatory impact analysis related to 
this.
    Chairwoman BONAMICI. But the original, just to clarify, the 
original regulatory impact analysis did not include the 
analysis that you revealed yesterday afternoon, is that 
correct?
    Mr. LIPPS. That's correct.
    Chairwoman BONAMICI. The Committee Chairman made multiple 
requests for that analysis since the rule was published in 
July. Why did the department wait until 5 p.m. the day before 
the hearing to provide the Committee and the American public 
with that analysis?
    Mr. LIPPS. Chairwoman, we provided this analysis as soon as 
it was available and ready. The Chairman requested that. The 
agency conducted the analysis, went through the proper 
clearance channels and was provided as quickly as possible.
    Chairwoman BONAMICI. Mr. Lipps, the department knows that 
nearly one million children will lose automatic access to free 
school meals as a result of this proposed rule. This 
information was not included in the initial RIA.
    So how had--can the department determine that 14 days is 
enough time for the public to meaningfully comment on this 
proposed rule?
    Mr. LIPPS. Chairwoman, we believe 14 days is sufficient 
time for the public to comment on this specific four page 
document. The record will be officially opened for 14 days.
    The notice was given yesterday and it won't officially 
publish until Friday so there will be some extra days in that 
as well. But we do believe that is sufficient time for people 
to comment on this--
    Chairwoman BONAMICI. Well, I know I share the concerns of 
many that is an insufficient time and the only reasonable 
conclusion I can draw is that the department left the 
information out to avoid public criticism. They know that this 
would be poorly received by the public.
    And additionally releasing the analysis at 5 p.m. on the 
day before the hearing makes it appear that the USDA was trying 
to thwart oversight. That concerns me. The USDA can and should 
be better for Americans, children, and families. And I now 
recognize the Ranking Member for the purpose of questioning the 
witness.
    Mr. COMER. Thank you. Secretary Lipps, I have a series of 
quick questions I want to ask so the record will be clear on 
this topic so please answer as briefly as possible. To begin 
with, the broad based categorical eligibility rule is a rule 
addressing a provision in the SNAP program, is that correct?
    Mr. LIPPS. That's correct.
    Mr. COMER. The impact analysis USDA completed on this SNAP 
rule was how the program impacted SNAP participation, is that 
correct?
    Mr. LIPPS. That's correct.
    Mr. COMER. Are the Child Nutrition Programs a part of the 
SNAP Program?
    Mr. LIPPS. No, sir.
    Mr. COMER. Because the Child Nutrition Programs are not 
part of the SNAP Program, USDA did not do an official analysis 
of any impact to those programs in the proposed rule, is that 
correct?
    Mr. LIPPS. That's correct.
    Mr. COMER. While no official analysis on the proposed rule 
was done in an off the record call to Congress your staff 
provided some back of the envelope calculations on that impact, 
is that correct?
    Mr. LIPPS. Yes, sir, I believe that's the call the 
Chairwoman was referring to. Yes, sir.
    Mr. COMER. But those calculations would not be included in 
any official analysis that would be published or put out by 
USDA at that, at this time, is that correct?
    Mr. LIPPS. Right.
    Mr. COMER. You have since published this information 
analysis, correct?
    Mr. LIPPS. Yes, sir.
    Mr. COMER. Can you please walk us through what the actual 
impact to child nutrition participation would likely be?
    Mr. LIPPS. Yes, sir. The informational analysis that we 
released yesterday showed that families who would not qualify 
for direct certification through SNAP because they do not meet 
the asset income test in the SNAP statute, will come into the 
child nutrition program though the income test that this 
Committee provides in statute.
    And of those children who are indirectly affected because 
their families no longer qualify for SNAP, 96 percent of them 
will continue to qualify for free or reduced price meals under 
the eligibility standards that you've set.
    Mr. COMER. A few other questions. Under the child nutrition 
laws, what are the eligibility requirements to receive free or 
reduced price meals?
    Mr. LIPPS. Free meals are provided to families whose income 
is under 130 percent of poverty level and reduced is provided 
for those between 130 and 185 percent of the poverty level.
    Mr. COMER. Are there any requirements in SNAP either in the 
statute or regulations that govern eligibility for free or 
reduced priced meals under the Child Nutrition Program?
    Mr. LIPPS. No, sir.
    Mr. COMER. Does the proposed BBCE rule make any changes to 
the eligibility requirement under the child nutrition law?
    Mr. LIPPS. It does not.
    Mr. COMER. Back to the child nutrition laws and regs. Is it 
clear to parents and school food authorities on how students 
can apply to receive free or reduced priced meals and does that 
include through direct certification or a categorical 
eligibility?
    Mr. LIPPS. Those standards are clear. The agency works with 
states and school districts and others to ensure that parents 
know the opportunities for their children to participate in 
those programs on a regular basis.
    Mr. COMER. Does USDA have any policy or plan to try to 
prevent eligibility student's from receiving free or reduced 
price meals?
    Mr. LIPPS. No, sir. We are trying to ensure that all of 
those do have access.
    Mr. COMER. Does that answer change if the BBCE proposed 
rule is finalized?
    Mr. LIPPS. It does not.
    Mr. COMER. Has USDA put out guidance and answered question 
on implementation of the Child Nutrition Programs to help 
schools ensure eligible students receive free or reduced price 
meals?
    Mr. LIPPS. Yes.
    Mr. COMER. All right. Well, thank you very much and, Madam 
Chairwoman, I yield back the balance of my time.
    Chairwoman BONAMICI. I now recognize Representative Fudge 
from Ohio for 5 minutes and, Mr. Lipps, will you please when 
you answer please make sure that your microphone is on and 
maybe get a little closer to the microphone. We are having 
trouble hearing you.
    Mr. LIPPS. I think it's on. Is this better?
    Chairwoman BONAMICI. Yes, that is better, thank you.
    Mr. LIPPS. I'll pull it up.
    Chairwoman BONAMICI. Ms. Fudge.
    Ms. FUDGE. Thank you very much, Madam Chair. And if I might 
before I get into my questioning, Madam Chair, I would request 
unanimous consent to enter into the record three letters urging 
USDA to reconsider its proposed BBCE rule.
    Chairwoman BONAMICI. Without objection.
    Ms. FUDGE. Thank you very much. The first letter is dated 
October 2, 2019 and it is signed by all 55 members of the 
Congressional Black Caucus.
    The second letter is dated September 23, 2019 and it is 
signed by 24 attorneys general from across the country.
    And the third letter is dated today, from the Dairy Farmers 
of America. Thank you, Madam Chair.
    Chairwoman BONAMICI. Without objection.
    Ms. FUDGE. Thank you. I, you know, Mr. Lipps, I had the 
opportunity to watch part of your testimony this morning at Ag 
Approps and determined that you were really very, very good at 
evasion. I am certainly hopeful that you will be more 
forthcoming this afternoon.
    And as I continue to hear this broken record about finding 
on person that scammed the system, I am so sick of it. So 
because one person scammed the system we are supposed to punish 
hungry kids.
    That makes absolutely no sense to me. Okay, do something 
with the one person. Don't punish all of these hungry children 
in this country or senior citizens because one person broke a 
rule. It is just ridiculous. And I am sick of hearing it. It is 
just like a broken record.
    I think that it is important for us to understand that this 
is not about scuff laws. This is about taking care of people in 
this country who are hungry.
    Now, Mr. Lipps, your proposal just from your own 
information will take food out of the mouths of three, more 
than three million working families, children, seniors and 
persons with disabilities.
    The proposal would impact elderly SNAP households, I am 
sure you are aware that approximately 13 percent of all SNAP 
households with elderly members will lose their benefits. I 
take hunger very, very seriously.
    I represent one of the poorest districts in the United 
States. Half of the children in the city of Cleveland are 
living in poverty according to U.S. census data. These kids 
often live in SNAP households and rely on the free nutritious 
meals provided by their local schools to succeed in their 
classrooms.
    Unfortunately for poor Americans, the administration's plan 
to cuts to SNAP do not end just with BBCE. To date, USDA has 
published a trio of cruel SNAP proposals that will strip 
critical food assistance away from millions of poor and working 
families.
    Do you know how many participants or households will lose 
their benefits if all three of these rules were to be finalized 
in their current form?
    Mr. LIPPS. Ms. Fudge, I don't know what the interaction on 
those is. You're correct about the 3.1 million on BBCE and 
there is an estimated 775 on the ABOD rule.
    Ms. FUDGE. Well, the numbers I have shows its going to be 
about 4 million people. 4 million. Does that sound reasonable?
    Mr. LIPPS. That's close.
    Ms. FUDGE. Okay. So at least we are on the same page there. 
So you think it is okay to put in place rules that would put 4 
million people off of SNAP?
    Mr. LIPPS. Representative, I think it is important that the 
Agency carries out the asset and income standards that Congress 
prescribes.
    There is a conversation to be had about whether those need 
to be changed to serve people differently, but they're provided 
in statute.
    Ms. FUDGE. So wait, wait, wait, back up. These are rules we 
are talking about. This isn't something Congress prescribed.
    Mr. LIPPS. That's correct.
    Ms. FUDGE. This is something the USDA prescribed.
    Mr. LIPPS. That's correct.
    Ms. FUDGE. So let us be clear.
    Mr. LIPPS. States have used this loophole to put people on 
the program who are outside the asset and income standards that 
Congress has prescribed.
    Ms. FUDGE. So you want to throw out the baby with the 
bathwater. Is that what you want to do?
    Mr. LIPPS. We are ensuring--
    Ms. FUDGE. Well, you have no control over these states?
    Mr. LIPPS. We are ensuring that there is integrity in the 
program by advancing this rule. Folks--
    Ms. FUDGE. Who allows the states to make these decisions? 
Us, right?
    Mr. LIPPS. You prescribe in statute what the asset and 
income--
    Ms. FUDGE. So they are only doing what we are allowing them 
to do.
    Mr. LIPPS. It's our job to ensure that the asset and income 
test that you prescribe are abided by in statute and that's 
what this rule does.
    Ms. FUDGE. Well, once again I would say, sir, that you all 
believe in states' rights when it is to your advantage and you 
don't when it is not.
    What is your position on states right?
    Mr. LIPPS. This rule is about ensuring that laws that you 
have asked are complied with--
    Ms. FUDGE. I didn't ask about the rules. I said what is 
your position on states' rights is my question.
    Mr. LIPPS. We believe that state flexibilities and some--
and how these programs are administered can test possibilities 
to serve people better and there are opportunities where we do 
that.
    We do not believe that we should allow states to set 
separate income and asset standards other than what Congress 
has provided.
    Ms. FUDGE. That is duplicitous. I mean, do you--did you 
support it or don't you?
    Mr. LIPPS. You provide situations in which we can provide 
flexibility to states and you provided very clear income and 
asset standards and we are ensuring that those are complied 
with by refining how categorical eligibility is implemented in 
this program.
    Ms. FUDGE. Well, since you believe in states' rights I 
think this is much ado about nothing. Madam Chair, I yield 
back.
    Chairwoman BONAMICI. Thank you. I now recognize Mr. 
Thompson for 5 minutes.
    Mr. THOMPSON. Secretary Lipps, good to see you. Great to 
work with you. I appreciate your service, appreciate the 
service of Secretary Purdue.
    You know, this, despite the unfounded claims to the 
contrary by some of my friends, this is not about scam, those 
who are scamming. This is about program integrity. And food 
security should be the focus.
    I, as someone who chaired the Nutrition Subcommittee in the 
Agricultural Committee and worked on these very issues, issues 
that actually passed out of the House of Representatives, you 
know, we should be focused on ensuring that those who are truly 
in need are well served.
    Free for all despite not being eligible takes food from 
truly needy families and I would argue hungry children and that 
is just wrong.
    There is a finite number of dollars but we do have an 
obligation, I believe, to serve those who are experiencing food 
insecurity.
    But we are talking about using, taking money literally away 
from truly needy, financially needy families and perhaps and 
many of them hungry families and children, to make it free for 
all. That is just wrong.
    I want to discuss the BBCE rule and the data we have 
available. In addition to this Committee as you know, I serve 
on the Agricultural Committee and was very involved in the farm 
bill.
    As you know the House passed bill proposed more a robust 
data collection. I find it concerning that some of my 
colleagues opposed getting that information then but are now 
saying we should wait on this rule until we have more data.
    Now I am afraid they can't have it both ways. The evidence 
is clear. Three million individuals do not meet the basic 
eligibility requirements of SNAP.
    That is a textbook violation of program integrity 
regardless of how my colleagues spin it and have to be 
corrected to ensure that this program appropriately uses tax 
payer dollars and appropriately serves those who are truly in 
need.
    We should do that, we should do that at our best and if we 
are misusing the program, we don't have program integrity, we 
are actually taking resources away from those who are truly in 
need.
    Now, Mr. Lipps, is it correct in my understanding that this 
rule change will not impact individuals who are statutorily 
eligible for SNAP benefits?
    Mr. LIPPS. That's correct.
    Mr. THOMPSON. Am I further correct that if a family 
qualifies for SNAP, the children in that family will be 
directly certified to receive free meals in school?
    Mr. LIPPS. That continues to be the case.
    Mr. THOMPSON. And does anything in this proposed BBCE rule 
change the direct certification for school meals at all?
    Mr. LIPPS. No, sir.
    Mr. THOMPSON. Am I correct in saying that if we circulate 
and it would be an appropriate part of our packet here, as a 
Member of this Committee, and everyone got a SNAP application, 
SNAP brochure we will just say which will be the appropriate 
thing to do when we are talking about SNAP that because we 
have--that has been given to us and that would be in our pack, 
we would now--every Member of this Committee would be eligible 
under broad based categorical eligibility for the SNAP program.
    Mr. LIPPS. Mr. Thompson, that's precisely the issue that 
both the Government Accountability Office and the Office of 
Inspector General pointed out as the problem with broad based 
categorical eligibility.
    Mr. THOMPSON. And I think our income well goes well beyond 
eligibility. But that is one of the things that there is a 
program integrity issue. This is not about going after the 
millionaire or the scam.
    Yeah, we ought to do that, but this ought to be about 
really helping the kids and the families who are truly in need. 
Thank you, Mr. Lipps.
    Now while you are here, I have got to take the opportunity 
to discuss something else nutrition, child nutrition.
    As you may recall, the last time you were before our 
Committee, I discussed milk consumption in the Child Nutrition 
Programs and the importance of moving just to allow whole milk, 
not forcing it, not requiring it, but allowing whole milk in 
addition to other flexibilities recently enacted.
    I am curious if you have looked into the research on the 
nutritional benefits of whole milk?
    Mr. LIPPS. Mr. Thomson, the next time I come I'm going to 
bring a pint of milk instead of my water just for you.
    Mr. THOMPSON. Make it chocolate if you would, that is my 
favorite.
    Mr. LIPPS. I'm aware of the recent research in that area. 
As you know the dietary guidelines, Scientific Advisory 
Committee is currently operating and they will consider all of 
that evidence on the whole as they look to revise the dietary 
guidelines and advise if there is an update that should be made 
on the percentage of milk served in schools.
    Mr. THOMPSON. Great. Let me just finally and also like to 
know if you have any preliminary data on milk consumption now 
that we are into the school year and kids can access more milk 
varieties including one percent and flavor?
    Mr. LIPPS. We don't have any feedback on that immediately 
from a study, Mr. Thompson. But anecdotally certainly there are 
some children that enjoying milk with the new flexibilities.
    Mr. THOMPSON. Thank you, Chairwoman.
    Chairwoman LEE. Thank you. I now recognize Ms. Hayes for 5 
minutes.
    Ms. HAYES. Thank you, Madam Chair. And thank you, Mr. 
Lipps, for being here. The last time you were before this 
Committee, you said that you agreed that you did not like to 
see hungry children and you emphasized Secretary Purdue's 
pledge to do the right thing and feed everyone. Remember that?
    Mr. LIPPS. I remember that.
    Ms. HAYES. So I am just at a loss because without even 
reviewing the research that clearly demonstrates that good 
nutrition is vital to a child's development, any teacher can 
tell you that hungry kids don't learn.
    And you started out your testimony by saying those who can 
provide for themselves should. Should I remind you that 
children can't provide for themselves?
    Can I ask you if this is a program integrity issue, just to 
kind of switch gears, how many children did you say would 
remain protected if this rule is implemented?
    Mr. LIPPS. How many would remain--
    Ms. HAYES. I mean, the percentage.
    Mr. LIPPS. Remain eligible, 96 percent would remain 
eligible.
    Ms. HAYES. 96 percent. So this isn't a program where there 
was rampant misuse if you have already identified that 96 
percent of the people who would have access to it would still 
continue to use the program.
    So I am just curious as to why the U.S. Department of 
Agriculture would target children in this way? It is not like 
we are saying 4 percent of students are eligible and 96 percent 
are misusing it. It seems like the program is operating with 
integrity.
    Mr. LIPPS. Well, I'll have to point back to the fact that 
the rule is about integrity in the SNAP program. It has an 
indirect effect on the school meals program based on the 
linkages provided in statute.
    And that's why per the income test that Congress has 
provided in statute 96 percent of then will continue to be 
eligible.
    Ms. HAYES. Hungry kids don't care about income tests. So we 
have a responsibility as the stewards of these programs, if you 
will, to ensure that we are fixing the things that are broken 
and maintaining the things that are working and not just 
getting rid of everything arbitrarily.
    Because you keep telling the story about this millionaire 
who misused the system. I have a million stories about children 
with their heads on their desks who come in, who are packing 
lunches, friends are bringing in food, teachers are buying them 
things to take home over the weekend, who are staying after 
school because they have no home to go to.
    So if we want to go story for story, I have so many stories 
to tell you about what that looks like in the classroom. So it 
is just deeply concerning to me that of all the areas where we 
need work that targeting children at this time where food 
insecurity is identified as such a critical problem in our 
communities, that this is the direction that the department 
would want to go.
    Can you explain why the department--I am sorry. Did your 
department include potential effects on educators in your 
analysis of the proposed rules impact on school meal 
eligibility or consult any educators?
    Mr. LIPPS. There is not an analysis with regard to 
educators in the informational analysis that we released. 
Educators likely have commented in the record and we will 
consider those and respond to them as a process of dealing with 
the comments in the record.
    Ms. HAYES. I am just curious. I know you are extending the 
comment period. Why wasn't it opened initially for the full 
period so that you can get as much robust information as you 
could in order to make an informed decision?
    Mr. LIPPS. Are you talking about specifically with regard 
to this informational analysis?
    Ms. HAYES. Yes.
    Mr. LIPPS. The Agency conducted a regulatory impact 
analysis as it was required for the statute. It went through 
all appropriate clearance channels and was provided for public 
input for 60 days.
    The Chairman asked for this analysis and we have provided 
it and as such we are providing it to the public for the 
opportunity to comment.
    Ms. HAYES. So it was opened for 60 days for public comment?
    Mr. LIPPS. That is correct.
    Ms. HAYES. So in the event this rule is finalized, does 
your department have any plans to notify the families of the 
nearly 1 million children that will now have to fill out a 
form?
    Because in years past they would not have had to fill out a 
form so if they are unaware that now this is a requirement they 
may just miss it again just on a procedural standpoint.
    Mr. LIPPS. We work with--sorry.
    Ms. HAYES. Go ahead.
    Mr. LIPPS. We work with states and school districts every 
year to ensure that families have those communications and we 
will continue to do that as we move forward.
    Ms. HAYES. But all of your testimony kind of lends itself 
to the fact that you don't trust the states to be good stewards 
of these programs.
    Mr. LIPPS. I have not--
    Ms. HAYES. So would--my question is would the department, 
does the department have any plan to notify the families?
    Mr. LIPPS. Not directly. The department does not administer 
the program. Local school districts administer the program 
under the supervision of their state and we provide them 
technical assistance. We will continue to do that to ensure 
that everybody--
    Ms. HAYES. So the local school districts have the ability, 
the capacity, the autonomy to oversee the program?
    Mr. LIPPS. That's correct.
    Ms. HAYES. I am sorry?
    Mr. LIPPS. That's correct.
    Ms. HAYES. That is correct. That is what I thought you 
said. Thank you. Madam Chair, I yield back.
    Chairwoman LEE. Thank you. I now recognize Mr. Grijalva for 
5 minutes.
    Mr. GRIJALVA. Thank you, Madam Chair. Mr. Lipps, you are 
arguing that you did not conduct the economic analysis of the 
rules impact on school needs and needs meals because you were 
not required to assess the impact on this population.
    However, last night your department issued this analysis. 
At what point did you acknowledge that you were--that you 
actually needed to assess the impact on school meals?
    Mr. LIPPS. Congressman, the regulatory impact analysis that 
accompanied the rule that was published in the Federal Register 
for comment was appropriately drafted and went through all 
appropriate clearance channels with regard to its effect on the 
program for which we were refining the integrity measures being 
the Supplemental Nutrition Assistance Program.
    This informational analysis was requested by the Chairman 
of this Committee and we are providing it to him and as such 
also providing it to the public in the record and opening the 
comment period on the specific issue for them to have an 
opportunity to comment.
    Mr. GRIJALVA. But further in your testimony to my colleague 
and in response, you just said that Ms. Miller provided our 
staff with the back of the envelope analysis on a staff call 
about the rule.
    So are you admitting that your department was aware that 
there would be a significant impact to the free school meals 
program but did not think it was necessary to do a more 
comprehensive analysis?
    Mr. LIPPS. The analysis that was provided with the rule was 
accurate and met all requirements for that standard and the 
information was provided to the Committee upon request.
    Mr. GRIJALVA. Well, you know, the administration proclaimed 
I believe this week to be national school lunch week and 
praising the success of the program that provides lunch to more 
than 29 million children nationwide, Mr. Lipps, each month.
    My question is if the administration believes that the 
national school lunch program is so successful, why are you 
proposing a rule that would remove nearly a million children 
from that program that provides not only nutrition but provides 
the setting for learning as well? So how do you reconcile those 
two?
    Mr. LIPPS. Congressman, it's important to reiterate that 
this Committee sets the eligibility standards for school meals. 
We do believe it is a wonderful program, has had great success. 
I enjoy getting to see that success when I am out on the 
ground.
    The rule that you reference is a rule with regard to 
refining the categorical eligibility in the SNAP program which 
has provided a loophole to the asset and income test that a 
committee of another jurisdiction has provided in statute.
    Mr. GRIJALVA. Okay. You know, Congress has in terms of the 
rule, Congress has repeatedly rejected efforts to eliminate the 
categorical eligibility option including as recently as the 
bipartisan 2018 Farm Bill was enacted last December.
    That has been the will and the consensus and negotiations 
that Congress has been involved with regard to this program. 
Yet your rule attempts to pulmogate a policy that has already 
been rejected by this Congress in terms of what happened with 
the Farm Bill.
    How do you reconcile that? That you are able to do what you 
want and regardless of what this Congress's opinion, feelings 
or will is?
    Mr. LIPPS. Congressman, the rule was stated in the Agency's 
work plan prior to consideration of the 2018 Farm Bill. 
Congress did not make changes with regard to the Agency's 
ability to refine broad based categorical eligibility to deal 
with the issues brought up in the GAO and OIG report. Congress 
was aware of that--
    Mr. GRIJALVA. You didn't think the rejection efforts to 
eliminate the categorical eligibility option was not a 
statement relative to your work plan?
    Mr. LIPPS. Congressman, Congress did not put in statute 
requirements for us not to move forward with this rule and did 
not change the asset and income test in statute and therefore 
we are moving forward with refining broad based categorical 
eligibility for those issues that we have talked about.
    Mr. GRIJALVA. And in my district, Mr. Lipps, 4,000 kids, 
just on the back of the envelope analysis as you did are going 
to be affected and affected in a very real way in our schools.
    And, you know, I don't know how we can reconcile telling 
these kids and I don't know whose families are struggling they 
should no longer have access to food while they're trying to 
learn each day.
    I, it's a contradiction, a contradiction that this Congress 
has rejected as late as December and it's a contradiction that 
you seem comfortable with. I yield back.
    Chairwoman LEE. Thank you. I now recognize Mr. Trone for 5 
minutes.
    Mr. TRONE. Thank you, Madam Chair. Your department 
estimates nearly one million children will lose automatic 
access to free school meals with your proposed rule.
    But when SNAP participation rates go down, we also see a 
decrease in the Identified Student Percentage, the ISP, which 
is used to calculate the eligibility of the Community 
Eligibility Provision, CEP.
    This provision lets low income students in school district 
provide free meals for all students. All students. The ISP also 
determines the reimbursement rate from the Federal government 
when they participate in CEP.
    Decreasing those ISP rates therefore puts these schools at 
risk of losing their ability to participate in a CEP that is 
going to impact their financial bottom line.
    Do you know how many schools nationwide have ISP's between 
40 and 50 percent and therefore they are at risk of losing 
their ability to have free meals for all students because of 
this rule?
    Mr. LIPPS. Congressman, I don't have that exact number. We 
can get back to you. I will note that as you say, as the 
economy continues to improve and SNAP enrollment goes down, 
that does make this ISP percentage more difficult.
    When Congress put the CEP provision in the 2010 Act which 
is now expired, they tied the ISP percentage to direct 
certification on SNAP.
    That is a problem for schools as the economy improves and 
people come off of SNAP and may be an issue. If you want to 
look at that as you move forward with child nutrition 
reauthorization, the Agency is certainly willing to provide 
technical assistance on resolving that issue.
    Mr. TRONE. Well, we appreciate that. Well, the answer is 
roughly 2,000 schools. 2,000 schools are in that bracket when 
that ISP drops they are going to lose their ability to take 
care of all the students.
    So it doesn't appear the department considered or analyzed 
the effects of those schools that are near the 40 percent 
threshold. That is the key. 2,000 schools. It is going to be 
harder to feed our kids.
    Madam Chair, I would like to ask unanimous consent to enter 
into the record the Food Resource and Action Centers report 
entitled Community Eligibility: The Key to Hunger Free Schools. 
Madam Chair.
    Chairwoman SCHRIER. [Presiding] Thank you. I would like to 
recommend--to recognize--
    Mr. TRONE. Without objection.
    Chairwoman SCHRIER. Oh, sorry. Without objection.
    Mr. TRONE. That will work. Thank you, Madam Chair. Mr. 
Lipps, I don't know how many schools nationwide, you know, if 
you don't know how many schools nationwide have ISPs between 40 
and 50 percent, does the department really know that there 
aren't more than a million students who would be affected when 
the entire school, whole school loses it, loses their CEP? Do 
you know those numbers?
    Mr. LIPPS. Congressman, as noted in this informational 
analysis, particularly when you talk about these programs that 
are linked to each other, these are based on estimates.
    The department has prepared a proper analysis which they 
believe to be accurate based on those estimates and put them 
out. It does also note that a number of those children affected 
may be in CEP schools and so the number may be significantly 
lower based on that as well.
    Mr. TRONE. Okay. We agree. The CEP also reduces paperwork 
for the schools and parents so they can spend their time on 
serving the students versus pushing the paperwork for the 
Department of Education.
    What was the administration doing to help parents of 
children who no longer receive free meals through CEP to apply 
for reduced price meals for their kids?
    Mr. LIPPS. Congressman, we have about 6 to 7 million 
children who come onto the school meals program through 
applications every year and the agency working with states and 
local school districts takes a number of actions to help 
simplify that process as best we can and to ensure that parents 
and families have all of the information they need to know the 
availability for access and to ensure that their children have 
access to--
    Mr. TRONE. Well, in my district, we have three schools who 
have lost their eligibility to implement CEP because the ISP 
changed. So we are going to be looking to see if you guys help 
those folks out with the paperwork burdens and if those kids 
can then quality for free school meals that they maybe won't 
ever get because of the paperwork that is overwhelming for the 
kids, their parents, and the teachers. Madam Chair, I would 
like to also ask unanimous consent to enter into the record 
three letters in opposition to the proposed rule from 
organizations that work to eliminate hunger in my district. 
Manna Food Center, Maryland Hunger Solutions and the Montgomery 
County Maryland Community Action Board.
    Chairwoman SCHRIER. Without objection.
    Mr. TRONE. Thank you. I simply can't understand why the 
administration would take in actions makes it harder for 
schools to be part of CEP. I can't support hungry kids and I am 
disappointed that you support hungry kids.
    Chairwoman SCHRIER. I would like to recognize Ms. Lee from 
Nevada.
    Ms. LEE. Thank you. Mr. Lipps, I would like to take a 
moment to clarify something for the record here. Committee--you 
and the Republicans on this Committee have said that 96 percent 
of children impacted by the proposed rule will still be able to 
participate in free and reduced priced meal. However, according 
to the departments analysis that we got last night, of the 
nearly 1 million children who will lose their direct 
certification for free school meals, only 45 percent will 
continue to be eligible for free school meals after they fill 
out the individual application and there is all sorts of issues 
with that.
    51 percent will only be eligible for reduced price meal. 
That is 30 cents for breakfast, 40 cents for lunch and 4 
percent will be--will have to pay the full price.
    Filling out individual applications as has been recognized 
earlier is a huge burden for schools and families that the 
department did not account for. And some eligible children 
undoubtedly will fall through the cracks. This is a preventable 
disaster.
    For the 51 percent of impacted students who will only be 
eligible for a reduced priced meal, paying 40 cents for lunch, 
30 cents for breakfast can be an enormous financial burden for 
families.
    Children who qualify for reduced price meals are between 
130 and 180 percent of the Federal poverty level. For a family 
of four, think about that. That is an income for a family of 
four between $33,455 and $51,000.
    In my home State of Nevada, approximately 1,300 students 
will lose their access to school meals because of the community 
elimination of the CEP.
    And, you know, this is at a time when we are wrestling with 
increasing, widening income disparities and we have so many 
families and children struggling with food insecurity.
    In your written testimony, you stated that you have talked 
about the importance the USDA gives to good customer service 
and that comes from listening to customers. So I want to start 
off and ask you several yes and no questions.
    First of all, did you consider any input from any of these 
families before the administration released this rule 
essentially eliminating their eligibility?
    Mr. LIPPS. Congresswoman, its important to recall that this 
rule is about a refinement of SNAP broad based categorical 
elements--
    Ms. LEE. I understand.
    Mr. LIPPS.--not with regards to school meals.
    Ms. LEE. Did you consider any input from these families?
    Mr. LIPPS. We drafted this rule based on the needs of the 
SNAP programs and not child nutrition standards which this 
Committee sits in statute.
    Ms. LEE. Okay. So that is a no. Does the department think 
that children of these families do not need free school meals?
    Mr. LIPPS. Congresswoman, this Committee decides who should 
get free and reduced priced meals. It is our job to carry that 
out. There is a discussion to be had if you all want to change 
those as part of child nutrition reauthorization. This agency--
    Ms. LEE. Well, your change--okay.
    Mr. LIPPS.--is happy to prepare technical assistance to 
assist you with that.
    Ms. LEE. But let me clarify. You are changing the rule 
because of a report of one person who qualified for SNAP that 
was wealthy thereby affecting millions of children across this 
country.
    Does the department think that children in these families 
whose income are between this do not need free school meals?
    Mr. LIPPS. Congresswoman, again, Congress makes that 
decision on who qualifies for free school meals and reduced 
price school meals and we carry that out.
    Ms. LEE. Okay. With nearly 1 million, again this was just 
updated, losing access, do you think it is reasonable to 
conclude that child food insecurity will increase or decrease?
    Mr. LIPPS. Congresswoman, 96 percent of those continue to 
qualify under the standards provided in statute and we don't 
know what those numbers are going to show.
    Ms. LEE. Well, I understand but I think I want to--as I 
clarified earlier, 51 percent of impacted students now may have 
to pay. Other students will fall through the cracks because of 
not knowing about the application or not properly filling it 
out.
    So my question, yes or no. Do you believe it will increase 
food insecurity for children?
    Mr. LIPPS. I don't have an answer to that Congresswoman, at 
this time. We can certainly look at that as we move forward and 
if you think those standards need to be different, we will 
certainly be available to provide technical assistance on 
changing them.
    Ms. LEE. Okay. Well, thank you. I am--before I end, I would 
like to enter into the record a letter from Abby Leibman, 
president of Mazon clarifying the impacts that this rule change 
will have on senior, veterans, Native Americans, and rural 
Americans.
    Chairwoman SCHRIER. Without objection. I would like to 
recognize myself for 5 minutes.
    So it turns out that today is world food day, a day meant 
to highlight the ongoing fight against hunger.
    And it seems particularly ironic that today we are talking 
about a rule, a proposed rule, that would increase the number 
of hungry children across this country, rather than lower it. 
In my home State of Washington, there are 15,633 students who 
stand to lose access to free school meals as a result of the 
proposed rule about categorical eligibility. And in my district 
in central Washington, there are over 3,300 students that stand 
to lose their free lunch status.
    There are many schools in my district with poverty rates 
over 40 percent. That is nearly two and a half times the 
National average of about 16 percent.
    And according to the superintendent of the Manson School 
District, many of these students eat two meals a day at school 
which are often the only well-balanced, nutritious meals they 
get. Many also participate in the summer meal program. Further, 
the U.S. Census Bureau's Supplemental Poverty Measure shows 
that the school meals program and SNAP measurably reduce the 
rate of poverty.
    Now, I know, Mr. Lipps, from your previous appearance 
before our committee, that you care about the wellbeing of 
children and so could you help me understand why the department 
is choosing to move forward with a rule that will clearly 
reduce access to nutrition programs that have been shown to 
reduce poverty?
    Mr. LIPPS. Sure. Congresswoman, I don't know if you were 
here earlier for all of my comments on the fact that this is a 
rule with regard to refining categorical eligibility in the 
SNAP program.
    Congress sets the asset and income tests for that program. 
It's our job to ensure that they're abided by and that's what 
this rule does.
    There is an indirect effect on the school meals program and 
those families have access to that school meals program via the 
income standards that this Committee sets in statute and by 
which 7 million other school children come under the program 
every year.
    Chairwoman SCHRIER. So let us just be clear that by ridding 
of this categorical eligibility, people still qualify but they 
will have to go through a whole bunch more hurdles, lots more 
paperwork.
    In fact, I don't have the numbers in front of me--well, 
maybe I do but we would need in Washington State to hire 165 
additional personnel just in order to take care of the 
increased paperwork.
    So this sounds like we are shifting our spending away from 
spending on food for children and towards spending on 
bureaucracy. That seems like the wrong direction to be going.
    Mr. LIPPS. Do you have a question on that?
    Chairwoman SCHRIER. I am contesting what you said. Do you 
have any comments about that? Because I will go on.
    Mr. LIPPS. Congresswoman, again, I would say this Committee 
sets those asset and--those income tests for families to 
participate in school meals. There are 7 million who come in 
via this access point every year.
    If Congress feels that is not the right way for kids to 
come on the meals, they should deal with that in child 
nutrition reauthorization and we will be at the table to 
provide technical assistance on helping move forward in that 
direction.
    Chairwoman SCHRIER. I wanted to add as a pediatrician, I am 
concerned that taking away school meals and this is from a half 
a million kids nationwide and I talked about the numbers in my 
state, will also decrease their academic performance and result 
in probably worse behavior in school.
    Research shows that children who participate in Federal 
nutrition programs do better in math and reading and are more 
likely to graduate and ultimately that means they will 
contribute to our economy.
    Did you consider the impact of this rule on academic 
outcomes and the, and our economy later?
    Mr. LIPPS. The SNAP rule considered impacts with regard to 
administration of the SNAP program and went through all proper 
clearance channels.
    Chairwoman SCHRIER. Okay. And did you consider the 
administrative burden and the transfer of dollars to 
bureaucracy and to paperwork and hiring additional personnel 
instead of putting food into children's bodies?
    Mr. LIPPS. I do believe there is a consideration of the 
administrative side of this issue in the recently released 
informational analysis.
    Chairwoman SCHRIER. Okay. I am going to conclude because I 
have a few more seconds. Just with a general principle, that 
there seems to be an underlying effort to take people who are 
already on the edge in this country and make life just a little 
bit tougher for them.
    SNAP costs $1.40 per meal. We are a wealthy country. There 
are plenty of places that we could make cuts that would not so 
adversely affect people in this country who can least afford 
that kind of trauma and difficulty in their lives.
    These are programs that pull families out of poverty and 
that make hungry people not hungry. I would like to thank you 
for your attendance today.
    Mr. LIPPS. Thank you.
    Chairwoman SCHRIER. And I would like to recognize Dr. Foxx 
for 5 minutes.
    Mrs. FOXX. Thank you, Madam Chairwoman, and, Mr. Lipps, 
thank you so much for being here today. We really appreciate 
your coming back and being with the Subcommittee. I support 
efficiency in programs. I support improving program integrity. 
I support reducing the burden on grantees, states and others 
when participating in or implementing Federal programs. And 
with all that, I support ensuring the benefits offered to those 
in need actually reach those in need. Taxpayers give the 
Federal government their hard earned money and we owe it to 
them to help make sure the money is used effectively, 
efficiently and in accordance with the law.
    I believe the proposed BBCE rule will ensure that 
hardworking tax payer dollars are spent in accordance with the 
law. Do you agree with that, Mr. Lipps?
    Mr. LIPPS. Yes, ma'am.
    Mrs. FOXX. I believe the proposed BBCE rule will impact 
categorical eligibility within programs because individuals not 
eligible, not eligible, will no longer be able to slide in to 
eligibility for all programs by subverting the income 
requirements and being considered a participant in another 
program.
    With that said, any family that actually qualifies for SNAP 
will continue to do so when this rule becomes final. Is that 
correct, Mr. Lipps?
    Mr. LIPPS. Absolutely.
    Mrs. FOXX. And therefore, the families that are eligible 
for SNAP will be directly certified for free school meals when 
this rule is finalized. Is that correct?
    Mr. LIPPS. That's correct.
    Mrs. FOXX. So despite hearing that an outrageous number of 
students will lose access to free meals that is hardly close to 
the actual impact of this proposed reel--rule. Is that correct, 
Mr. Lipps?
    Mr. LIPPS. That's correct.
    Mrs. FOXX. Once the loophole in SNAP is closed, the 
families that qualify for free or reduced price meals will 
remain the same, correct?
    Mr. LIPPS. Correct.
    Mrs. FOXX. If your family earns 130 percent or below the 
Federal poverty limit, your children qualify for free meals. 
Nothing changes.
    If your family earns between 130 percent and 185 percent of 
the Federal poverty limit, your children qualify for reduced 
price meals. Nothing changes. Is that correct, Mr. Lipps?
    Mr. LIPPS. Yes. Yes, ma'am.
    Mrs. FOXX. Thank you, Mr. Lipps. Mr. Lipps, several of my 
colleagues have implied or directly stated that the policy is 
targeted--targeting children and encouraging increased hungry 
children.
    That does not seem to be the purpose of this rule to me 
based on your testimony, based on the rule, based on the 
clarifications you have made.
    Is there anything that has been discussed today at this 
hearing that you'd like to clarify or reemphasize for the 
record?
    Is there anything you feel is mischaracterized that you 
would suggest we look at more data to better understand how all 
of these programs interact?
    Mr. LIPPS. Congresswoman, I appreciate that. Hunger is an 
important issue. We all agree on that. I know that that's 
important to you, and I have heard your statements on that with 
regard to your background and we all care about those issues.
    Our job at USDA, you have tasked us to make, to ensure that 
there is integrity in all of these programs. Broad based 
categorical eligibility rule is an integrity rule dealing with 
loopholes in the SNAP program to ensure the asset income test 
and posed by the Committee of jurisdiction are complied with.
    This Committee has jurisdiction over school meals programs. 
You set the income tests for these programs and we ensure that 
they are carried out in the best manner possible to ensure that 
all of those children have access.
    We do that today. We will continue to do that tomorrow. And 
I appreciate the opportunity to clarify that.
    I would also say with regard to interaction in the 
programs, there are a lot of programs that interact with the 
families that we serve at this point, particularly as families 
move from free to reduced priced meals.
    There is always a conversation to be had about ways to 
better serve them and cause those programs to better interact 
to help those families along.
    This agency is always willing to be at the table to help 
provide technical assistance on those discussions should this 
Committee choose to move forward in those.
    Mrs. FOXX. Thank you, Mr. Lipps. I don't believe anybody in 
the Agriculture Department wants to put children in a position 
where they are, there are more children who are hungry in this 
country.
    But I do think we want program integrity and we want the 
adults who are utilizing this program inappropriately to be 
held accountable. Thank you, Mr. Lipps. Thank you, Madam 
Chairwoman.
    Mr. LIPPS. Thank you.
    Chairwoman SCHRIER. I would like to recognize my colleague 
Mr. Johnson from South Dakota for 5 minutes.
    Mr. JOHNSON. Thank you, Madam Chair. Mr. Lipps, thanks for 
being here today and I want to thank you for your passion 
toward hunger and making sure we do what we can to reduce 
hunger in this country.
    This is a personal topic for me. I, like a number of my 
colleagues on both sides of the aisle in Congress, utilized 
SNAP benefits as a part of my family when I was growing up. And 
we need a social safety net in this country for those people 
who truly need it.
    So thank you for your efforts to make sure that safety net 
is intact and effective.
    I want to--and I know you have been asked these questions 
before but I just want to make sure that logically I understand 
how this flows.
    Mr. LIPPS. Sure.
    Mr. JOHNSON. So the income and asset test for SNAP, that 
has been set by Congress, is that right?
    Mr. LIPPS. That's correct.
    Mr. JOHNSON. And at the time that those standards were set, 
Congress indicated I believe that their motivation, their 
intent was to make sure that these resources were targeted 
toward the most needy families. Is that right?
    Mr. LIPPS. That is my understanding.
    Mr. JOHNSON. So the law in search of administrative 
efficiency, did provide for some categorical eligibility that 
meant that people who qualified for some programs like TANF 
which is quite difficult to qualify for, that they would be 
considered eligible for programs that are a little easier to 
qualify for like SNAP. Is that right?
    Mr. LIPPS. That's correct, yes, sir.
    Mr. JOHNSON. And it is my understanding that a number of 
states have really strained that categorical eligibility in all 
likelihood beyond what Congress intended into what we are now 
calling broad based categorical eligibility.
    And that it is not just possible but is happening today 
that people who otherwise wouldn't qualify under the 
Congressional established asset and income test are now 
receiving benefits that they have not, they are no, they don't 
legitimately are qualified for, right?
    Mr. LIPPS. Yes, sir, that's correct. And as I have noted 
before, this--that's the exact issue that the Government 
Accountability Office and Office of Inspector General report 
pointed out that are occurring in masse in a number of states.
    Mr. JOHNSON. So I want to make sure that I have the facts 
on this right because it was hard for me to believe the first 
time I heard it.
    There can be at the state level, someone who is deemed 
qualified or receives--forget even substantial TANF benefits, 
but perhaps a TANF funded information that then because they 
have received quote a TANF benefit that there are some states 
who then are without any income or any asset test are allowing 
those individuals to be eligible for SNAP. Am I understating 
that right?
    Mr. LIPPS. You're correct, yes, sir.
    Mr. JOHNSON. Those families then are eligible for the 
school lunch program even though in some instances there has 
been no income and no asset test conducted?
    Mr. LIPPS. That's correct.
    Mr. JOHNSON. So then in that environment, we are doing a 
pretty poor job of targeting these important and scarce 
resources toward the families that need it the most, is that 
right?
    Mr. LIPPS. Yes, sir.
    Mr. JOHNSON. What is the--I know you have said it before, 
Mr. Lipps, but what is the goal for the agency, for the 
department with this proposed rule?
    Mr. LIPPS. Congressman, the goal is to ensure that the 
eligibility standards that Congress sets for these programs are 
abided by and that the recipients on these programs know that 
there is integrity in this program and that there is not a dark 
cloud of new stories about these egregious behaviors that cover 
these programs.
    Congress provides an asset and income test for SNAP. This 
Committee provides income tests for school meals. We are 
ensuring those are abided by and we are not changing those. We 
don't have the authority to change that at the agency.
    Mr. JOHNSON. Okay. So I am going to provide a message to 
families, needy families, and I want you to, after I give that 
message, I want you to tell me in what ways it is flawed.
    My message to those needy families would be sir, madam, if 
your family meets the income and asset test for food stamps, 
after this rule goes through, you will still be eligible?
    Mr. LIPPS. Correct.
    Mr. JOHNSON. For food stamps.
    Mr. LIPPS. Correct.
    Mr. JOHNSON. Sir, madam, if there are people who have made 
you scared that the government is going to take away your 
otherwise legitimately, eligible for benefits, you should not 
be scared. If you qualify you will be eligible for those 
benefits. Is that right?
    Mr. LIPPS. That's correct.
    Mr. JOHNSON. Mr. Lipps, thank you for making this very 
clear for me. I appreciate it.
    Chairwoman SCHRIER. Thank you. I would now like to 
recognize our Chairman, Mr. Scott.
    Mr. SCOTT. Thank you. Thank you, Mr. Lipps, for being here. 
Let me just follow through, follow up on a question that was 
just asked. There are a million people who would be not 
categorically eligible for free lunch. Is that right?
    Mr. LIPPS. There are a million children who will no longer 
be directly certified for school lunch after the, if their 
families don't meet the asset and income test in SNAP.
    Mr. SCOTT. Okay. Now as I understand, 45 percent would 
still be eligible for free lunch, for free meals, right?
    Mr. LIPPS. Yes, sir.
    Mr. SCOTT. If they apply.
    Mr. LIPPS. Correct.
    Mr. SCOTT. And what does the evidence show as to the 
percentage of those who are eligible that end up slipping 
through the cracks in the application process?
    Mr. LIPPS. Mr. Chairman, I don't have data on that today. I 
can see what we have and get back to you on that. There are 7 
million children in this country who come in through the 
application process every year based on the income test that 
this Committee has provided in statute.
    Mr. SCOTT. Well, you recognize somebody slips through the 
cracks and this, this whole discussion doesn't make a lot of 
sense unless we know how many--because if all 450,000 get 
through the application process, we are just talking about a 
little inconvenience but nobody is denied nutrition.
    But if a significant portion can't get through the process, 
then we have a problem, isn't that right?
    Mr. LIPPS. Mr. Chairman, I would offer to you the same as I 
did earlier. If this Committee is interested at looking at 
other avenues to move children on to this program, other than 
the asset--than the income test provided in statute, that 
agency will stand ready to provide technical assistance on that 
as you--
    Mr. SCOTT. Well, we thought we had--
    Mr. LIPPS.--reauthorization.
    Mr. SCOTT.--before you, before this rule popped up.
    Mr. LIPPS. You--
    Mr. SCOTT. 450,000 were categorically eligible.
    Mr. LIPPS. Direct certification will continue to occur. 
Categorical eligibility between TANF and SNAP will continue to 
occur. They will occur--they will work in the manner that they 
were designed at the time of their--
    Mr. SCOTT. Except that they are not categorically eligible. 
They have to go through the application process and we don't 
know how many we are going to lose in that process. 510,000 
would be eligible for reduced price and if they apply is that 
right?
    Mr. LIPPS. Yes, sir that is the method for their entrance 
in the program described in the--
    Mr. SCOTT. And we don't--
    Mr. LIPPS.--statute.
    Mr. SCOTT.--know how many of those will lose eligibility--
will lose the benefit because they don't get through the 
process, is that right?
    Mr. LIPPS. I don't have an estimate on that.
    Mr. SCOTT. Okay. And 40,000 will lose eligibility all 
together.
    Mr. LIPPS. Families who do not meet the income test 
prescribed by this Committee in statute will not qualify for 
free or reduced priced meals.
    Mr. SCOTT. Well, yeah, but, I mean, we are not talking 
about rich people. We are talking about people who would, who 
are eligible for, you know, between 185 and 200 percent of 
poverty. I mean, it is just a little, that is what we are 
talking about, right?
    Mr. LIPPS. Well, its families anywhere over 195 percent to 
poverty level
    Mr. SCOTT. Right.
    Mr. LIPPS. And again, if Congress wants to change that we 
will participate in technical assistance to help make that 
happen.
    Mr. SCOTT. And what is the asset level that will be 
imposed?
    Mr. LIPPS. There is no asset test in school meals program.
    Mr. SCOTT. What is the asset in SNAP?
    Mr. LIPPS. The asset test in SNAP Congress has set a $2,250 
limit for assets in SNAP program.
    Mr. SCOTT. Okay. Can you, in your written testimony you 
mentioned the online purchasing pilot program.
    Mr. LIPPS. Yes, sir.
    Mr. SCOTT. Can you explain what affect that has on customer 
service?
    Mr. LIPPS. Sure. I think that program will provide a great 
opportunity to ensure that SNAP recipients have the same 
avenues to purchase their groceries as many of us others do. 
That pilot launched in New York and we are seeing great success 
there but we are being cautious to ensure that--
    Mr. SCOTT. What does success mean?
    Mr. LIPPS.--there is integrity both in the, on the SNAP 
side of the program but also for the recipients.
    Success means that recipients are able to purchase food and 
have it delivered to their home with integrity and that we are 
on a path to expand that so that more individuals may 
participate in it.
    Mr. SCOTT. And can you describe the SNAP employment and 
training program?
    Mr. LIPPS. Sure. The SNAP employment and training program 
is a wonderful program that the Agriculture Committee has given 
to FNS and to states who administer the program to provide 
opportunities for SNAP recipients to train for jobs that will 
advance their economic mobility.
    We have wonderful stories from around the country of 
individuals who participated in that program. I recently met 
with a formerly incarcerated individual who was estranged from 
his family who went through that program and is now running a 
moving company very successfully and has reunited with his 
program because of the time he spent in that employment and 
training opportunity.
    States, some states are doing a great job on that. We are 
working to make sure that all states are doing a great job on 
that and expanding those opportunities.
    Mr. SCOTT. Can you describe a little bit about what kind of 
training opportunities are available under that program?
    Mr. LIPPS. Sure. There are lots of different opportunities 
out there. Everything from culinary to wood working, Women in 
nontraditional jobs, truck driving, met with some individuals 
who were learning to code. So they're all across the spectrum 
but we are ensuring that our providers are making--
    Mr. SCOTT. And who runs the training programs?
    Mr. LIPPS. The training programs are run by the states 
through partners and we are working to--with states to ensure 
that they're selecting partners who are providing people skills 
that will provide them success in long term employment.
    Mr. SCOTT. Thank you, Madam Chair.
    Chairwoman SCHRIER. Thank you. I would like to recognize my 
colleague, Ms. Jayapal from Washington. Oh, excuse me. Ms. 
Wild.
    Ms. WILD. Thank you, Madam Chair. Mr. Lipps, first I want 
to ask you a question on behalf of one of my colleagues, Susan 
Davis who isn't here right now because she's at another 
committee hearing.
    She is a member of the Armed Services Committee and has 
asked me to ask you about the effect or the potential effect of 
these cuts on military families.
    I will tell you I was an Air Force brat myself, moved 
around from assignment to assignment with my family my entire 
childhood and I know full well the struggles of military 
families.
    And often, they receive housing allowance adjustments that 
artificially increase their income which could very well put 
many members of the military in the category of people who will 
no longer qualify for SNAP benefits and correspondingly their 
children for free lunches.
    Have any provisions been made by the agency or the 
administration to address these concerns of military families?
    Mr. LIPPS. Congresswoman, we don't have statutory authority 
to treat them differently. I'm aware of the basic housing 
allowance issue and I know that Members of Congress are aware 
of that and should they want to work on that issue again the 
agency will be happy to provide technical assistance--
    Ms. WILD. So the answer to that is no.
    Mr. LIPPS.--to address that.
    Ms. WILD. Okay. Mr. Lipps, it is estimated that 12 percent 
of households in Pennsylvania which is where I am from would 
lose their SNAP benefits as a result of this proposed rule.
    In my home, the Lehigh Valley of Pennsylvania, 50 percent 
of the children are eligible to receive free school meals. Many 
children would lose their access to school meals as a result of 
this rule. It risks their health and their wellbeing and it is 
imperative the USDA is transparent with the public about how 
the rule will harm children and families.
    And yet, on numerous occasions when Chairman Scott has sent 
letters to the department or had his staff request 
documentation of the department's analysis of the proposed 
rules impact on school meals, he was met with resistance.
    We are talking about a single document in a phone call with 
Committee staff and USDA Assistant Secretary Ken Barbic on 
October 7th.
    The Committee again requested that this document be made 
available to the Committee in advance of our hearing no later 
than October 11 and yet, we didn't get this information until 
late yesterday afternoon even though the information has been 
available since the rule was published in July. Can you account 
for that?
    Mr. LIPPS. Yes, Congresswoman. I talked about this earlier. 
This informational analysis did not exist at the time of that 
phone call. We provided the best information that we had.
    We have since produced the analysis and provided it both to 
the Chairman and to the public as quickly as we could.
    Ms. WILD. When did the informational analysis become 
available?
    Mr. LIPPS. It became analysis for publication yesterday 
when we released it.
    Ms. WILD. That wasn't my question. When did the analysis 
become available?
    Mr. LIPPS. It became available yesterday. I'm not sure I 
understand what your question is.
    Ms. WILD. Well, you said for publication. Was there some 
sort of process?
    Mr. LIPPS. We have a clearance process for all the 
documents that come out of the agency.
    Ms. WILD. So when was the information made available to the 
agency? Not when was the process--
    Mr. LIPPS. Well, the agency--
    Ms. WILD.--gone through.
    Mr. LIPPS. Sorry for interrupting. The agency created the 
document so the analysis was run after the request from the 
Chairman.
    Ms. WILD. Now, Mr. Lipps, when my colleague Mrs. Lee asked 
you a question a little while ago, you responded that Congress 
sets the eligibility rules.
    And yet Congress also established broad based categorical 
eligibility in the 2008 Farm Bill so that more children could 
be eligible for free school meals.
    And yet the department is not implementing the broad based 
categorical eligibility as dictated by Congress, is it?
    Mr. LIPPS. Congresswoman, I'm not sure that's accurate. 
Congress created categorical eligibility which will remain 
after our rule is implemented. Broad based categorical 
eligibility was implemented by the states and this agency and 
not by Congress.
    We will continue to allow categorical eligibility which is 
prescribed in statute.
    Ms. WILD. Well, during the 2018 Farm Bill reauthorization, 
House Republicans included a provision to gut SNAP broad based 
categorical eligibility in their bill. That proposal was 
stripped from the version of the bill signed into law.
    But now the department is proposing changes to categorical 
eligibility that would be substantially more harmful than those 
changes that Congress rejected in the 2018 Farm Bill 
authorization. Isn't that true?
    Mr. LIPPS. The department proposed these changes prior to 
consideration of the 2018 Farm Bill. Congress took no action 
with regard to the intent of the agency to move forward with 
that and the agency continues to move forward to address 
integrity issues that have been called out by the Government 
Accountability Office, the Office of Inspector General and 
continue to create negative news media reports on a very 
important program.
    Ms. WILD. Thank you.
    Chairwoman SCHRIER. I would like to recognize my colleague, 
Ms. Jayapal from Washington State for 5 minutes.
    Ms. JAYAPAL. Thank you, Madam Chair, and, Mr. Lipps, thank 
you for being here. Let me just be clear. Last year Congress 
passed the 2018 Farm Bill which expressly preserved broad based 
categorical eligibility for SNAP benefits, rejecting the 
proposal that my colleague Ms. Wild talked about, a proposed 
cut.
    And the bill received the most votes of any farm bill in 
the history. 369 votes, only 47 people voted against it. So I 
consider this rule with its lack of process and transparency a 
complete end run around Congress.
    And here is what I can't figure out. I can't figure out why 
the administration is pushing forward a proposal that takes 
away nutrition assistance from extremely low-income families. I 
don't think that is what the vast majority of the American 
people want.
    This Trump Administration rule is cruel to hungry kids who 
need our help for food. We are not talking about other things, 
we are talking about food. Basic nutrition assistance.
    So, Mr. Lipps, can you tell me roughly what 130 percent of 
Federal poverty level is because that is the qualification here 
we are talking about?
    Mr. LIPPS. Sure. It depends on the number of family 
members, Congresswoman.
    Ms. JAYAPAL. Okay. So I am going to say it is about 
$21,000.
    Mr. LIPPS. Sounds right.
    Ms. JAYAPAL. And I am using the generally accepted 
statistic. In my home State of Washington, our minimum wage is 
$12 an hour because we have very strong worker protections and 
a great state legislature.
    If you are working full time, that comes out to just under 
$25,000 a year which is above the threshold for eligibility for 
SNAP benefits and thus for free school meals.
    Your agency has acknowledged in the past that the typical 
family will spend more than half of that amount, $13,000 on 
child-related costs alone.
    Is it the goal of the administration to take away free 
school meals for families just over 130 percent of the poverty 
level?
    Mr. LIPPS. Congresswoman, I'm not sure you were here 
earlier when we talked about the objection--
    Ms. JAYAPAL. Actually I have been here for most of the 
hearing, Mr. Lipps. I think I have heard your answers. I am 
going to ask you the question again.
    Is it the goal of your agency to take away free school 
meals for families just over 130 percent of the poverty level?
    Mr. LIPPS. Let me tell you our objectives because that's 
not it. Congress sets that 130 percent level in statute. The 
agency does not set it. We do not have the ability to change 
that.
    Ms. JAYAPAL. You are changing a rule that states have 
implemented, that will have impact on decisions that states 
have made across the country that Congress has made clear we 
want to preserve that ability for states to do this so that 
hungry kids can get food.
    So I am just going to ask you one more time and it is a yes 
or no question. Is it the goal of the administration to take 
away free school meals for families just over 130 percent of 
the poverty line?
    Mr. LIPPS. No.
    Ms. JAYAPAL. Okay. Great. Well, then I would suggest 
pulling back on this rule. Since July this Committee has been 
asking for an analysis of how your proposed rule would impact 
school meals.
    I have heard the arguments of when you released this. They 
don't really make sense to me frankly. 20, less than 24 hours 
before the hearing you provide us with this analysis.
    Can you tell us by your own estimation how much money does 
the administration save by cutting off 1 million children from 
free school meals as you have proposed?
    Mr. LIPPS. Congresswoman, as we noted, we--the estimate is 
that 96 percent of those students will continue to qualify for 
free or reduced priced meals--
    Ms. JAYAPAL. How much does it cost? How much money--
    Mr. LIPPS.--so there is not an estimate of--
    Ms. JAYAPAL.--will the administration save?
    Mr. LIPPS.--of savings.
    Ms. JAYAPAL. How much?
    Mr. LIPPS. The estimate suggests that 96 percent of those 
will continue to qualify so there would note be a savings 
associated with them not receiving it.
    Ms. JAYAPAL. Let me tell you what the estimate is. It is 
$270 million over five years based on the data. So you are 
right.
    Now let us look at the costs. How much has USDA estimated 
administrative costs will rise as a result of your proposed 
rule?
    Mr. LIPPS. I don't know that offhand, Congresswoman.
    Ms. JAYAPAL. Well, let me tell you what it is, Deputy 
Undersecretary Lipps.
    Mr. LIPPS. Sure.
    Ms. JAYAPAL. I wish you did know this. It is your agency 
and your department and your rule.
    The administration estimated $2 billion over 5 years in the 
proposed rule. So the overhead costs of the program overall 
will go up by $2 billion by your own estimation.
    And as you write in the proposed rule released last night, 
this is a quote. Does not account for potential state and local 
administrative costs incurred due to collecting and processing 
household applications for children no longer categorically 
eligible.
    Mr. Lipps, setting aside administrative costs, can you tell 
me how $270 million over 5 years compares to the CBO's estimate 
of the total cost of the Republican tax bill that was passed in 
2017?
    Mr. LIPPS. Congresswoman, I would note that the costs that 
you noted earlier with regard to the regulatory impact analysis 
of the rule and not this informational analysis.
    Ms. JAYAPAL. Do you know how the $270 million over 5 years 
compares to the CBO's estimate of the total cost of the 
Republican tax bill passed in 2017?
    Mr. LIPPS. I'm not an expert on that, Congresswoman.
    Ms. JAYAPAL. Well, let me tell you, my time has expired. 
CBO estimated the cost of the tax bill to be $1.9 trillion over 
10 years, Mr. Lipps. Thank you very much. I yield back, Madam 
Chair.
    Chairwoman SCHRIER. Thank you. I would like to recognize my 
colleague Mr. Keller from Pennsylvania for 5 minutes.
    Mr. KELLER. Thank you, Madam Chair, and thank you, Deputy 
Secretary Lipps for being here. I know this has been asked many 
times so please bear with me but I just want to make sure that 
it is correct for the record.
    And that is it is my understanding or let me just ask this 
to make the record clear. Is there any attempt by the USDA to 
limit access to benefits by qualified individuals in other--
excuse me, in either the SNAP or school meal program?
    Mr. LIPPS. No, sir.
    Mr. KELLER. There is not. Because I look at the title here 
on the thing before I got the Subcommittee it says examining 
the USDA's proposed cuts to the free school meals. That is what 
it says on our paper.
    So you don't currently or the rules will not change any 
eligibility for any SNAP or school meal program?
    Mr. LIPPS. That's correct.
    Mr. KELLER. That is set by Congress?
    Mr. LIPPS. Yes, sir.
    Mr. KELLER. Okay. So when I look at this, the WIC programs 
and we are in school nutrition, child nutrition and WIC program 
was last reauthorized in 2010, is that correct?
    Mr. LIPPS. That's correct.
    Mr. KELLER. That is correct. Okay. This is the thing that I 
want to say and this is coming from an individual, I am not 
going to tell a story about people I represent or anecdotal 
stories.
    This is going to be a story about a kid that lived it. And 
I am going to tell you it is not fun to be hungry as a child. I 
had that childhood.
    And, you know, when we look at that there is nobody that 
wants to make or have anybody be hungry. I can't imagine what 
my parents went through knowing that their children were 
hungry. So to say that the administration or anybody else wants 
to change those guidelines, I think is just outrageous.
    So looking at this, you know, we are having a debate here 
on taking the Committee's valuable time on a proposed SNAP 
program which falls under the jurisdiction of the Agriculture 
Committees, is that correct?
    Mr. LIPPS. Yes, sir.
    Mr. KELLER. So our jurisdiction in this Committee would be 
for the school nutrition, the school lunch programs and so 
forth, correct?
    Mr. LIPPS. Correct.
    Mr. KELLER. So I would suggest to my colleagues rather than 
trying to prescribe motives or ascribe motive to what the 
administration is trying to do to make sure things are more 
equitable and the help is getting to where it needs to go, if 
we don't agree with the guidelines and think more people need 
help, then I would charge this Committee with looking into 
having hearings on what we should be doing to change those 
guidelines. Because if we were to change the guidelines, you 
would enforce those new guidelines?
    Mr. LIPPS. Yes, sir, without a doubt.
    Mr. KELLER. Okay. So again, the administration is not 
concerned with what the guidelines are or trying to eliminate 
anybody from getting help that needs help.
    Mr. LIPPS. That's correct.
    Mr. KELLER. Okay. So again I just want to say this one more 
time. If we are concerned about that, which we all should be 
making sure that people get the help they need, we as Americans 
want to do that.
    So I would say to this Committee, let's spend our time 
having hearings on what we should be doing to make sure those 
guidelines are reviewed and the people that get the help get 
the help rather than trying to attribute some kind of negative 
motive to somebody that is just trying to do the job Congress 
gave them to do. So I yield back.
    Mr. LIPPS. Thank you.
    Chairwoman SCHRIER. As a point of privilege, I want to 
clarify that the impact on the school meal program is within 
the jurisdiction of this Committee.
    And I recognize Dr. Adams from North Carolina for 5 
minutes.
    Ms. ADAMS. Thank you, Madam Chair. Thank you for--to the 
witness today for your testimony.
    The administration is circumventing congressional intent 
which was made clear in the 2018 Farm Bill to roll back 
categorical eligibility and take food assistance away from 
children, families, veterans, disabled, and older Americans.
    More than 98,000 North Carolinians, including 38--35,000 
North Carolina children would lose food assistance and school 
meals if this flexibility is eliminated.
    Mecklenburg County, my district, we have more than 10,000 
people, almost half of which are children who would lose access 
to food assistance and that is without counting for the 
children at risk of losing lunch and breakfast due to the 
impact of this rule on the community eligibility provision. So, 
Mr. Lipps, the families and children that your proposal would 
take away, take food away from, are very low income, making 
ends meet on as little as $28,000 for a family of three.
    One of the best resources that a family could hope to rely 
on when their wages are so low is a little savings for an 
emergency like when the car breaks down or their child needs to 
go to the doctor, wouldn't you agree with that?
    Mr. LIPPS. Yes, ma'am.
    Ms. ADAMS. So but this rule wouldn't just penalize families 
if they receive a modest raise of $1 per hour in a low wage 
job. It would penalize them for saving even a few dollars for 
that kind of emergency.
    So my question, in fact the administration's own estimates 
show that about half of the households who would lose SNAP 
under this rule would do so as a result of the so called asset 
test not the income test. Isn't that right?
    Mr. LIPPS. Yes, ma'am, that's correct.
    Ms. ADAMS. Okay. So the 1.7 million households who would 
lose SNAP are nearly evenly split between those that failed the 
Federal SNAP income test and those that fail the Federal 
resource test.
    So this would mean that most families wouldn't save more 
than $2,250 without jeopardizing their children's access to 
school meals. So how does this rule then help families save for 
their children's future when they are forced to choose between 
saving for tomorrow or making sure that their kids have enough 
to eat today?
    Mr. LIPPS. Congresswoman, I appreciate your passion for 
these programs and I assure you that we share that. I 
acknowledged the issues that you raise.
    As we have talked about earlier, Congress sets those asset 
tests in the statute. It's an important discussion. I know that 
raising those was considered in the 2018 Farm Bill and not 
adopted.
    But it is an important discussion and if the committee of 
jurisdiction wants to look at modifying those, the agency is 
certainly willing to provide technical assistance on doing 
that.
    Ms. ADAMS. But you, would you make any recommendations 
without the Committee? I mean, we have passed the Farm Bill. I 
had the opportunity to sit on the Committee which I am Vice 
Chair of that Committee. But also in terms of settling that 
bill, so what would you say to that?
    Mr. LIPPS. Congresswoman, I can't alone endorse new policy 
but I will say as a part of that process that the 
administration issued a statement of administrative policy in 
support of the bill that made a number of changes including 
those that raised the asset test as noting that how these 
programs intersect with the individuals that you are talking 
about who often do struggle is very important to ensure that we 
give them the resources that they need to move forward.
    Ms. ADAMS. Okay. Madam Chair, I would like to enter 2 
letters into the record. One from the National Education 
Association and 23 faith based organizations. I would like to 
enter those for the record.
    Chairwoman SCHRIER. Without objection.
    Ms. ADAMS. Thank you. And, Madam Chair, I will yield back 
the balance of my time.
    Mr. LIPPS. Thank you.
    Chairwoman SCHRIER. Seeing as there are no more questions, 
I want to remind my colleagues that pursuant to, oh, excuse me.
    I want to remind my colleagues that pursuant to Committee 
practice, materials for submission for the hearing record must 
be submitted to the Committee Clerk within 14 days following 
the last day of the hearing, preferably in Microsoft Word 
format.
    The materials submitted must address the subject matter of 
the hearing. Only a Member of the Committee or an invited 
witness may submit materials for inclusion in the hearing 
record. Documents are limited to 50 pages each. Documents 
longer than 50 pages will be incorporated into the record via 
an internet link that you must provide to the Committee Clerk 
within the required timeframe but please recognize that years 
from now that link may no longer work.
    Again, I want to thank Mr. Lipps for his participation 
today. What we have heard is very valuable. Members of this 
Committee may have additional questions for you and we ask you, 
Mr. Lipps, to please respond to those questions in writing. The 
hearing record will be held open for 14 days in order to 
receive those responses.
    I remind my colleagues that pursuant to Committee practice, 
witness questions for the hearing must be submitted to the 
Majority Committee staff or Committee Clerk within 7 days. The 
questions submitted must address the subject of the hearing.
    I now recognize the distinguished Ranking Member Mr. Comer 
for his closing statement.
    Mr. COMER. Thank you. And thank you, Mr. Lipps, for coming 
here today. I understand it has been a very long day for you 
and I appreciate your time and patience in answering all of our 
questions.
    Mr. LIPPS. Thank you.
    Mr. COMER. I appreciate the opportunity to clarify the 
impact of this proposed rule and highlight its benefits to the 
tax payers and program participants even though the proposed 
BBCE rule falls under the Agriculture Committees jurisdiction.
    I believe the rule will strengthen integrity in the SNAP 
program by closing an unintended loophole that has allowed some 
states to extend food stamp eligibility to millions of people 
who do not qualify while taking away resources meant for the 
truly needy.
    My colleagues have criticized the rule and cited the impact 
on school meal programs as one reason they oppose. However, as 
many of my colleagues have discussed today and you have 
confirmed, under this rule no child who statutorily qualifies 
for a free or reduced price meal will lose access to their 
meal.
    If my colleagues are interested in exploring who actually 
qualifies for a free or reduced price lunch, we are happy to 
engage in a conversation around the reauthorization of the 
child nutrition programs.
    So the proposed changes in the rule will help prevent fraud 
and abuse within the SNAP program, fraud that cost tax payers 
nearly $64 billion in 2019 and not prevent one eligible child 
from receiving a school meal. That sounds like a good policy to 
me and something we should all support.
    Before I yield, I ask unanimous consent for two letters to 
be submitted to the record. They are both comments that were 
submitted to USDA on the proposed BBCE rule.
    Chairwoman SCHRIER. Without objection.
    Mr. COMER. Thank you. And I yield back.
    Chairwoman SCHRIER. Thank you. I now recognize myself for 
the purpose of making my closing statement.
    Mr. Lipps, thank you again for being here to discuss the 
USDA's proposed changes to SNAP eligibility and free school 
meals.
    As we discussed, the departments proposed rule will have 
a--will have devastating consequences for millions of our 
Nation's children and families.
    The departments own analysis found that the proposed rule 
will bar nearly a million children from qualifying 
automatically for free school meals that they need to be 
healthy.
    When children are hungry, they cannot learn and grow and at 
a time when millions of children do not have reliable access to 
food, this proposed SNAP rule will only exacerbate our Nation's 
food insecurity crisis.
    Mr. Lipps, as I did during your last appearance before this 
Committee, I urge you to recommit fulfilling the Food and 
Nutrition Services mission to increase food security and reduce 
hunger by providing children and low income people access to 
nutritious food.
    The only sensible step forward is to rescind this proposal 
and preserve access to automatic free school meals for nearly a 
million children.
    We owe it to the next generation to make sure they are 
prepared to learn and can reach their full potential.
    If there is no further business, I would like to wish our 
counsel, Janice Nsor, a happy birthday.
    And without objection the Subcommittee stands adjourned.
    Mr. LIPPS. Thank you.
    [Additional submissions by Chairwoman Bonamici follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    [Additional submissions by Mr. Comer follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
       
    [Additional submissions by Ms. Fudge follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    [Additional submissions by Ms. Hayes follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    [Additional submissions by Mrs. Lee follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [Additional submissions by Mr. Thompson follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    FNS Quality Control Process for SNAP Error Rate: https://
www.oversight.gov/sites/default/files/oig-reports/27601-0002-
41.pdf

    [Additional submissions by Mr. Trone follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 4:36 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
